<html>
<title> - WHY DID THE TRUMP ADMINISTRATION FIRE THE STATE DEPARTMENT INSPECTOR GENERAL?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                       WHY DID THE TRUMP ADMINISTRA-
                        TION FIRE THE STATE DEPARTMENT 
                        INSPECTOR GENERAL?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 16, 2020

                               __________

                           Serial No. 116-117

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-319PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                       

                      COMMITTEE ON FOREIGN AFFAIRS

ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas   

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Bulatao, Hon. Brian, Under Secretary for Management, United 
  States Department of State.....................................    16
String, Mr. Marik, Acting Legal Advisor, United States Department 
  of State.......................................................    30
Cooper, Mr. R. Clarke, Assistant Secretary of State for 
  Political-Military Affairs, United States Department of State..    35

                                APPENDIX

Hearing Notice...................................................    88
Hearing Minutes..................................................    89
Hearing Attendance...............................................    90

                  STATEMENTS SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Connolly..    91

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record..................    93

 
 WHY DID THE TRUMP ADMINISTRATION FIRE THE STATE DEPARTMENT INSPECTOR 
                                GENERAL?

                     Wednesday, September 16, 2020

                           House of Representatives
                       Committee on Foreign Affairs
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The Committee on Foreign Affairs will come 
to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any point, and all Members will have 
5 days to submit statements, extraneous material, and questions 
for the record, subject to the length limitations in the rules.
    To insert something into the record, please have your staff 
email to the previously circulated address or contact full 
committee staff.
    As a reminder to Members, staff, and others physically 
present in this room, the guidance from the Office of Attending 
Physician, masks must be worn at all times during today's 
proceedings, except when a Member or witness is speaking. 
Please also sanitize your seating area. The Chair views these 
measures as a safety issue and, therefore, an important matter 
of order and decorum for this proceeding.
    For members participating remotely, please keep your video 
function on at all times, even when you are not recognized by 
the Chair. Members are responsible for muting and unmuting 
themselves. And please remember to mute yourself after you 
finish speaking. Consistent with House Resolution 965 and the 
accompanying regulations, staff will only mute Members and 
witnesses as appropriate, when they are not under recognition, 
to eliminate background noise.
    I see that we have a quorum. And I now recognize myself for 
opening remarks.
    Let me welcome our witnesses. As I have let the Ranking 
Member know, I will be going considerably longer than the 
customary 5 minutes for my statement this morning and, of 
course, I will yield to Mr. McCaul for the same amount of time 
I consume. But we do have a lot to go over before we hear from 
our witnesses.
    On the evening of May 15th, a Friday, the President 
notified Speaker Pelosi that he was removing the State 
Department Inspector General Steve Linick. The law requires 30 
days notice to fire an IG, so Mr. Linick's last day was 
technically June 14th. The President and the Secretary, 
however, violated the spirit of the law by immediately placing 
Mr. Linick on leave, and locking him out of both his office and 
his email.
    In the days that followed, both the President and Secretary 
Pompeo made clear that the firing came at Mr. Pompeo's urging.
    I predict that today we may hear the refrain repeated that 
the President has the power to fire an inspector general 
whenever he wants to, so long as he provides the reason for the 
firing to Congress. No one is doubting that. I do not think in 
the last 4 months I have heard anyone say otherwise. The 
President has that power.
    But we have seen again and again in the last 4 years, the 
President shows very little reluctance to abuse his power. And, 
in May when Mr. Linick was removed, the President had been on a 
firing spree of inspectors general, the executive branch's 
independent watchdogs who help provide accountability and 
transparency in our government.
    With that in mind, and in view of information provided to 
the committee that Mr. Linick's firing may have been 
retaliatory in nature--again something that would represent an 
abuse of power--the committee launched an investigation into 
Mr. Linick's removal, along with the Committee on Oversight and 
Reform, and the Senate Foreign Relations Committee Minority 
Office. While the State Department has refused to date to 
produce any of the records we requested related to the firing, 
witnesses have come forward and given us a lot of good detail 
and context. Reports in the press have shed even more light on 
this matter.
    Now, here is what we know.
    Mr. Linick's firing was not a spur-of-the-moment decision. 
While Mr. Linick was told on May 15th that he was being pushed 
out, his temporary replacement Ambassador Steve Akard had 
already been lined up for a month or more. In his affidavit to 
the committee, Mr. Akard said that Mr. Bulatao contacted him 
either on April 9th or April 15th saying that Mr. Linick's 
ouster was imminent, and asking him if he would assume the IG's 
responsibilities on an acting basis.
    Over the next few weeks, Mr. Bulatao and Mr. Akard spoke 
several more times, including on May 14th and May 16th that Mr. 
Linick's removal was going forward.
    We know that at the time Mr. Linick was fired his office 
was conducting two investigations involving Secretary Pompeo's 
conduct. The first probe dealt with allegations that the 
Secretary and his wife misused government resources for their 
own personal benefit.
    According to Mr. Linick's testimony, his team began 
reaching out to the Office of the Secretary requesting 
documents in late 2019. Mr. Linick stated that about the same 
time he spoke to Mr. Bulatao, among other senior officials, to 
let them know he was seeking information. In his words, his aim 
was ``not to surprise the 7th floor,'' meaning the Department's 
liaison with news of this probe.
    Mr. Linick said that his office had contacted State 
Department Executive Secretary Lisa Kenna about this matter as 
well. Indeed, Ms. Kenna, in her interview with the committee, 
testified that in March of this year the OIG requested 
documents related to the Pompeo's travel. Like Mr. Linick, Ms. 
Kenna discussed the matter with senior Department officials, 
again among them Mr. Bulatao, and also Mr. String.
    Ms. Kenna also stated that ``every time there is an 
invitation to Mrs. Pompeo that involves travel I get it to the 
Under Secretary for Management, and he makes the 
determination.'' The Under Secretary of Management being Mr. 
Bulatao.
    Ms. Kenna authorized the search for these documents, but 
Mr. Linick was fired before they were turned over to the OIG. 
According to Ms. Kenna, the documents were only sent to the OIG 
after Ambassador Akard had taken over the IG's office. We 
presume the OIG's work on this matter was ongoing, so we do not 
know all the details. Press reports have also alleged that 
Secretary and Mrs. Pompeo used government employees to handle 
personal errands.
    Ms. Toni Porter, an advisor to the Secretary, told us in an 
interview that the Secretary and Mrs. Pompeo, who is not a 
State Department employee, often had Ms. Porter work on matters 
of special interest to the Secretary, which apparently included 
making dinner reservations and helping with the Pompeo's 
personal Christmas cards.
    According to the press earlier this week, exposed email 
traffic involving Mrs. Pompeo, Ms. Porter, and Ms. Kenna, 
indicating that Mrs. Pompeo and Ms. Kenna both understood an 
assignment to Ms. Porter to be of a personal nature that worked 
to keep a tight circle of government employees who worked on 
these matters. The committee has learned that there has been a 
large number of complaints to the OIG about the way the 
Secretary and Mrs. Pompeo were misusing Department resources 
for non-official matters.
    This alleged misuse of resources is not just for personal 
errands, it seems to be focused on the Pompeo's political 
future. Specifically, there is the question of the so-called 
Madison Dinners, a series of dinners the Pompeo's have hosted 
in the State Department's ornate 8th floor.
    Ms. Porter testified that the Pompeos conceived of the 
dinners as a way to ``expand the understanding of State 
Department work.'' The only problem with that explanation is 
that aside from the extensive planning that goes into these 
dinners, barely anyone from the State Department attends them.
    In fact, the Secretary is the only Department official who 
attends the closed door dinners: no senior diplomats, no 
regional experts, none of the people who on a day to day basis 
carry out State Department work, just the Secretary, a token 
foreign dignitary--a requirement in the State Department to pay 
for the dinners--and a dozen or so guests hand-picked by the 
Pompeos, nearly all Republican officials or people tied somehow 
to right wing politics, money, or media.
    Ms. Porter's testimony suggests that the foreign dignitary 
was a box-checking exercise; that the Protocol Office would 
sometimes swap out one dignitary for another while the Pompeos 
kept a tight grip on the political side of the guest list.
    Ms. Porter also stated that since the Pompeos began hosting 
these dinners they have built a data base to keep track of all 
the people they invited, who has attended, email addresses, 
mailing addresses. Ms. Porter, whose first work for the Pompeos 
goes back decades, and involves planning the Congressman's 
fundraisers, calls it a management tool.
    While it is understandable that the State Department 
protocol team keep, track of who was invited to official 
events, Mrs. Pompeo also had that list sent to her private 
email address, according to Ms. Porter. Suddenly a normal 
assistant saw something more like a political contact tool.
    These dinners were reportedly paid for out of the State 
Department's so-called K Fund, which can be used for 
``confidential requirements in the conduct of foreign affairs, 
as well as other authorized activities that further the 
realization of U.S. foreign policy objectives.'' This fund is 
overseen by Under Secretary Bulatao.
    I asked my staff to review the most recent unclassified 
reports to Congress on this fund, which was sent in a package 
with classified material, and are held in the SCIF. That raised 
an eyebrow or two among people who understand State Department 
budgets. The Pompeos have reportedly hosted about 20 of these 
dinners. And after a hiatus brought on by the COVID pandemic, 
the dinners restarted in earnest on Monday, with three more 
reportedly scheduled in the next few weeks.
    The second probe dealt with the Department's May 2019 use 
of an emergency provision of the Arms Export Control Act to 
push through more than $8 billion in arms sales to Gulf 
countries. The OIG finished its work on the matter and released 
its report last month.
    There is a lot to unpack here, and it is important that we 
lay it all out.
    In March 2015, a Saudi-led coalition launched an 
intervention in the civil war in Yemen aimed at countering the 
Iranian-backed Houthi forces that had seized control of Yemen's 
capital. The Obama Administration initially supported this 
effort through arms sales and logistical support. Our partners 
in the Gulf face very real security challenges that threaten 
freedom of navigation and U.S. troops stationed in the Middle 
East.
    Over time, however, it became increasingly clear that the 
Saudis were acting recklessly in the way they were carrying out 
that campaign with U.S. weapons. Civilian casualties mounted. A 
humanitarian crisis began burning out of control. The Obama 
Administration pushed pause on the sale of American weapons to 
the Saudis and their partners.
    When President Trump took office, it was an early priority 
of his Administration to get the flow of weapons going again. 
The concerns about civilian casualties had not gone away. And 
lawmakers on both sides of the aisle, myself included, began 
putting holds on sales of the most lethal weapons used in this 
war, most notably, a sale notified in April 2018 for 120,000 
Paveway precision-guided munitions, sometimes called smart 
bombs.
    Congress also passed legislation requiring the 
certification from the Administration that the Saudis were 
taking adequate steps to reduce civilian casualties.
    On August 9th, 2018, the Saudi-led coalition blew up a 
school bus, killing more than 25 children and injuring scores 
more. Just over a month later, in spite of this, Secretary 
Pompeo certified to Congress that the Saudi and Emirati 
Governments were ``undertaking demonstrable actions to reduce 
the risk of harm to civilians.''
    Congress did not buy it, and the holds on these weapons 
sales remained in place for nearly 9 more months while the 
carnage went on unabated in Yemen.
    Mr. Charles Faulkner, who until last summer was an official 
in the State Department Legislative Affairs Bureau, told us in 
his interview that Congress' concerns about civilian casualties 
were legitimate. In fact, he said that many State Department 
officials shared those same concerns.
    How could you not? We have seen all the images: collapsed 
buildings, twisted metal, mangled bodies, starving children. 
We, in Congress, challenged the Administration to provide 
assurances that U.S. weapons would not be used to kill 
civilians or destroy civilian infrastructure. But Secretary 
Pompeo wanted a different way forward. After all, as Mr. 
Faulkner tells us, moving ahead with lots of weapons sales was 
a major priority for the White House.
    For Mr. Pompeo, the logjam in Congress had to be broken. In 
April 2019, Mr. String told Mr. Faulkner that he had found a 
way to do it: tell the world the sky was falling.
    Under the Arms Export Control Act an administration can 
bypass the normal congressional approval process by declaring 
an emergency. Mr. Faulkner testified that he was worried about 
what impact such an action would have on the Department's 
relation to Capitol Hill. After all, Senator Menendez's and my 
concerns about civilian casualties had not diminished. 
Nevertheless, on May 24th, 2019, the State Department notified 
Congress that the Administration was declaring an emergency 
and, therefore, moving forward with 22 arms sales, packages 
mostly for Saudi Arabia and the UAE.
    As I noted earlier, no one doubts the emergency provision 
exists in the law and that the executive branch has the power 
to invoke that authority. To my knowledge, no one has suggested 
otherwise, despite some of the spin you have heard from the 
State Department. But the question since last May has been: 
``Did Secretary Pompeo abuse that power when he declared an 
emergency? Was the emergency phony? Was it a mere pretext to 
circumvent congressional oversight?''
    Those questions are why Members of this committee asked Mr. 
Linick in June of last year to look into that decision. The 
findings of that probe are eye-opening.
    The OIG found, consistent with what I just said, that the 
emergency declaration did not violate the letter of the law. 
That is because Congress did not define the term ``emergency,'' 
leaving it up to a normal administration's common sense. But 
the OIG also stated explicitly that it did not assess whether 
there was a real emergency underlying that declaration. 
Frankly, they did not need to make that assessment; the facts 
speak for themselves.
    The unclassified portion of the report lays out a time line 
for the emergency declaration that aligns with Mr. Faulkner's 
testimony. Namely, that it took nearly 2 months, from April 3d 
until May 24th, 2019, for the emergency declaration to make its 
way through the State Department---7 weeks, far longer than the 
30-day congressional review period under the normal 
notification process codified in the law.
    The report also tells us, underneath redactions, that the 
Department insisted the OIG slap on top of the version released 
to the public that Mr. Pompeo determined on May 4th that he 
wanted to send the emergency notification to Congress no later 
than May 24th. An emergency that you can plan for 7 weeks in 
advance isn't an emergency, as far as I am concerned, 
especially when the regular congressional review process would 
have taken less time.
    I have to note that Mr. Cooper testified before this 
committee last year that the emergency that required this 
extraordinary action arose between May 21st, 2019, when Mr. 
Pompeo briefed Congress, and May 24th, 2019, when the 
declaration was transmitted to us. That testimony was false.
    The report also indicates that most of the arms packages 
have not been delivered yet, and likely will not be during this 
calendar year. Again, what kind of wartime emergency can be 
addressed with weapons that arrive 2 years later? And the 
answer, obviously, is none.
    There was no emergency. Ranking Member McCaul and I offered 
an amendment to last year's NDAA that would have better defined 
the word ``emergency.'' But in my view, the nonsense that the 
Department pulled to get around Congress is a secondary 
question.
    Yes, I believe it was an abuse of power and an affront to 
our system of checks and balances. I believe the Department 
made false representations to this committee. But what is this 
really about?
    Many of us here in Congress saw the situation on the ground 
in Yemen and said, Enough. We thought that before we shipped 
instruments of death overseas, adequate precaution should be in 
place to ensure that those instruments would not be used to 
blow up school buses or funeral processions. We did not want 
the United States to be party to the slaughter of innocents.
    But Mike Pompeo's State Department did not see it that way. 
His view is summed up in this sentence from the OIG's report, 
and I quote: ``OIG found the Department did not fully assess 
risks and implement mitigation measures to reduce civilian 
casualties and legal concerns associated with the transfer of 
PGMs included in the Secretary's May 2019 emergency 
certification.''
    Didn't assess the risk; did not try to reduce civilian 
casualties; did not deal with legal concerns. This isn't 
describing the Saudis or Emiratis, it is describing our own 
State Department under the Trump Administration, under Mike 
Pompeo.
    Now, think about that funding in the broader context I have 
just laid out and ask yourself why did not they do those 
things? Was it an oversight? In the mad rush to get weapons out 
the door after Mr. Pompeo made that emergency declaration did 
those questions just fall by the wayside?
    Of course, the answer is of course not. The emergency was 
declared specifically so that the State Department could avoid 
answering those questions. And how do we know that? Because 
those are the precise questions Congress was already asking. 
That is why we held up the arms sales. What are the risks? What 
are we doing to reduce civilian deaths?
    This is a deeply damning report. Now that we have seen it, 
the findings of our own investigation into the IG's firing make 
more sense, namely, that State Department officials have been 
trying for months to suppress the findings.
    In his testimony, Mr. Linick said that Mr. Bulatao and Mr. 
String attempted to bully him by saying that the OIG should not 
be looking into this matter, that it was a policy decision 
outside the OIG's purview. Of course, it is entirely legitimate 
for an IG to examine policy implementation. Again from Mr. 
Linick's testimony, Mr. Bulatao seemed not to understand the 
role of an independent IG.
    It is also quite noteworthy that Secretary Pompeo refused 
to be interviewed for the OIG's review. Mr. Linick stated last 
year he approached Mr. Bulatao, Mr. String, and Deputy 
Secretary Biegun about scheduling the interview. The 
Secretary's team suggested that Mr. Linick conduct the 
interview personally. Mr. Linick told Mr. String that he was 
amenable to the idea, so long as one other member of the OIG 
staff could be present as a witness. The Secretary's team 
apparently ignored that request and, instead, Mr. Pompeo was 
never interviewed by Mr. Linick. Instead, Mr. Pompeo provided 
the OIG with a written statement that it had never requested.
    When the pandemic hit in March and the OIG was wrapping up 
its work on this matter, Mr. Linick considered the issue 
unresolved and hoped to find some time in the future to discuss 
this interview with the Secretary, which he continued to 
discuss with Mr. String. But, before he and Mr. String reached 
an accommodation, Mr. Linick was fired. Everything Mr. Linick 
said suggested that he considered an interview with Mr. Pompeo 
to be an important piece of unfinished business.
    Mr. Linick's temporary replacement, Mr. Akard, learned 
quickly that Secretary Pompeo was particularly interested in 
this report. According to Mr. Akard's affidavit during his 
first 2 weeks on the job, both Deputy Secretary Biegun and Mr. 
Bulatao called him expressing Mr. Pompeo's curiosity about when 
the OIG's work on arms sales would be done.
    Mr. Akard recused himself from that process and from the 
probe into the misuse of resources. That was sensible, as Mr. 
Akard had deep conflicts of interest in addition to service as 
Acting Inspector General. He retained his role in the State 
Department as the director of the Office of Foreign Missions in 
which he reported both to Mr. Bulatao and Secretary Pompeo. It 
is easy to see how this would affect his work.
    If Mr. Akard began an investigation into a matter the 
Secretary did not want reviewed, Mr. Akard's career in the 
State Department could potentially suffer.
    The roll-out of this report a little more than a month ago 
is also now shrouded in controversy. Even before the OIG 
released the report, there was a background briefing to press 
on the report's findings. But it was not the OIG that held this 
briefing, it was the Bureau of Political-Military Affairs, 
specifically Mr. Cooper, under the guise of a ``senior State 
Department official.'' They stole a page right out of Attorney 
General Bill Barr's playbook: the report was not yet public, 
the press did not have copies, neither did Congress.
    Nevertheless, Mr. Cooper, who was not an author of the 
report but was himself interviewed as a fact witness in the 
probe, tried to spin the media with his most favorable 
interpretation of events. The State Department tried to take an 
early victory lap because the OIG found that they did not 
technically break the law. It is all reminiscent of Attorney 
General Barr going out and saying the Mueller Report exonerated 
the President.
    The next day the unclassified version of the report was 
released to the public with a number of key redactions. The 
public version of the report hid the time line that undercuts 
the Department's claim of an emergency. In the public version, 
the time line only runs from May 21st, when Mr. Pompeo briefed 
Congress, to May 24th, when the emergency certification was 
sent to Congress. Hidden are the other dates stretching back to 
early April when the emergency authority was first considered. 
Other redactions hid the fact that few of the weapons at the 
time of the OIG's review had been delivered.
    The OIG has since provided us the memoranda showing that it 
was Mr. Cooper himself who demanded those redactions, working 
in consultation with Mr. Joshua Dorosin, the deputy in Mr. 
String's office. To reiterate, Mr. Cooper, Mr. Dorosin, and Mr. 
String were all interviewed by OIG as witnesses in this matter. 
In fact, Mr. Dorosin was sent by the Department early in this 
investigation and tried to convince my office not to push the 
documents or witnesses in this matter without disclosing that 
he was a witness himself.
    The fact that none of them recused themselves from dealing 
with the OIG report before it was released is baffling, a 
glaring lapse.
    And, finally, on the arms sales matter we have the question 
of the classified annex. A considerable chunk of the OIG's 
findings and recommendations are hidden in the classified 
section, and about 40 percent of that section is also hidden 
under redactions, and not even Members of Congress are 
permitted to see behind.
    And, again, Mr. Cooper decided the members of this coequal 
branch of government, that this committee which authorizes and 
oversees the State Department, should not have access to the 
OIG's findings. It boggles the mind.
    So, to recap, we have two OIG investigations that are 
potentially embarrassing to Mr. Pompeo. In March 2019 both of 
these probes are ramping up, getting closer and closer to the 
Secretary and his top advisors.
    Then in April, Mr. Bulatao tells Mr. Akard that Steve 
Linick's days as IG are numbered.
    After a few weeks of back and forth with the White House, 
Mr. Linick is out.
    In the aftermath, Mr. Pompeo pushes Mr. Linick's 
replacement to find out when the arms sales report is going to 
be ready. And when Ms. Porter is contacted by the IG to sit for 
an interview dealing with misuse of resources, Mr. Bulatao 
assures her that there is no need to rush to get it on the 
calendar.
    Now, Secretary Pompeo, in Mr. Bulatao's version of why Mr. 
Linick was fired, centers on how The Daily Beast obtained 
information about a draft OIG report dealing with the legal 
personal practices by Brian Hook, another high-ranking State 
Department political appointee. After the article ran, senior 
Department leadership wanted an investigation into the leak, 
including the possibility that the draft report leaked from the 
OIG.
    I have to note here the reporting in the press was all 
accurate. The IG did find that Mr. Hook engaged in prohibited 
personal practices, discriminating against a career employee. 
He was not disciplined by Secretary Pompeo or Under Secretary 
for Management Bulatao. He is still at the Department despite 
press reports indicating that he was leaving.
    Mr. Bulatao has claimed that Mr. Linick did not do what he 
promised, which is, namely, to chase down the leak. Mr. 
Linick's testimony directly contradicts that in precise detail.
    Mr. Bulatao has pointed to the fact that Mr. Linick did not 
turn over the complete findings of the leak investigation, 
findings that cleared Mr. Linick and his office. Mr. Linick 
addressed that as well, saying he was concerned that members of 
the OIG staff named in the report could face retaliation.
    Well, guess what? As soon as the State Department finally 
got hold of that report they leaked it to The Daily Caller, 
names and all. Mr. Linick was no dummy.
    We will get into more of that later. But, Mr. Bulatao, I 
consider the version of events you laid out in your June 1st 
letter to be misleading at best, and urge you to think long and 
hard if you are considering repeating those claims here on the 
record. It ultimately will be up to the American people to 
decide which version of events is more credible.
    Did Mr. Pompeo fire his agency's independent watchdog 
because of the way he handled his investigation into unproven 
allegations of a leak in the OIG? Or did Mr. Pompeo fire him 
because he was getting closer and closer to matters that were 
embarrassing to Mr. Pompeo and his family, matters that 
implicated the State Department in a scheme to bypass Congress 
and sell lethal weapons that might be used for war crimes?
    To me, the IG's firing fits into something much bigger: 
everything we are looking at--the arms sales; the misuse of 
resources; firing of the IG, followed by the effort to smear 
him; the excruciating process of getting the State Department 
to cooperate with the investigation, with this investigation; 
and the constantly shifting conditions and snide letters 
explaining to Congress how we should conduct oversight; the ad 
hominem attacks on myself and my staff; the lies.
    Mr. Bulatao, we did not hear from you for 4 months. You 
would not take yes for an answer. At first you wanted to brief 
us. Well, this is an investigation, not a policy concern. We 
needed information in a formal setting on the record.
    Then we had you scheduled to be here in July. Deputy Biegun 
called me the last minute, despite the Department's claims that 
I refused to speak to him, imploring me to postpone the 
hearing, which I did. When we tried to reschedule, you moved 
the goal posts, laying out a laundry list of new conditions. We 
had to drop requests for all the other witnesses. We had to 
have a joint hearing with the Oversight Committee. We could 
only hear from you for 2 hours.
    What this is all about is that you and Secretary Pompeo 
apparently think you should be able to do whatever you want and 
not face accountability or scrutiny of any kind. Congress is 
blocking weapons sales: find a way around.
    The IG is looking at how the Secretary spends taxpayers' 
money: fire him.
    The report shows that we made up a phony emergency and did 
not do our due diligence to prevent civilians from being 
killed: cover it up, spin it, hide it in the classified annex, 
redact, redact, redact.
    The Foreign Affairs Committee is investigating: blow them 
off, cancel their briefings, call them names, tell them we know 
better.
    And you pat yourself on the back when it is determined that 
you technically followed the process laid out in law. More 
Yemeni children may die, but your scheme to make an end-run 
around Congress was not illegal strictly speaking. 
Congratulations.
    There is at the highest levels of the State Department a 
fundamental misunderstanding, as far as I am concerned, of the 
way our government is supposed to work, of the way public 
service is supposed to work. It explains why Mr. Pompeo is 
potentially facing contempt in this body in which he used to 
serve. I still hope we will find a way to avoid that, but we 
will have to see what happens.
    I appreciate everyone's indulgence. These are complicated 
matters, and it is important that our Members and those 
watching understand the whole timeline. We have a lot more to 
cover.
    I will soon recognize our witnesses for 5 minutes each for 
an opening statement, pending which I will yield to our Ranking 
Member Mr. McCaul for as much time as he would like to use.
    Mr. McCaul. Thank you, Mr. Chairman. And thank you, Under 
Secretary Bulatao, and Assistant Secretary Cooper, Advisor 
String for your presence.
    Before addressing the substance of today's hearing I would 
be remiss if I did not take this opportunity with senior State 
Department officials here today to acknowledge that yesterday, 
for the first time in 25 years, Israel established diplomatic 
relations with two Arab countries. I had the honor to be in 
attendance yesterday at the White House when these historic 
Abraham Accords were signed.
    In my opinion, this is a game changer for the Middle East. 
It is a bad day for Iran. And it would not have occurred but 
for the extensive diplomatic engagement of this Administration.
    So, congratulations for this historic accomplishment.
    The news of Inspector General Linick's firing did come as a 
surprise. Inspector generals are an essential tool in helping 
Congress execute its constitutional oversight of the executive 
branch. And any time one is terminated, it naturally will raise 
some questions. However, inspector generals, like other 
officers in the executive branch, as the chairman stated, do 
serve at the pleasure of the president.
    I also want to emphasize that the Inspector General has a 
team, and their investigative work continues even after 
removal. And while I believe the President complied with both 
the law and with precedent from previous administrations in his 
termination of Mr. Linick, some questions surrounding his 
removal remain, and thus why we are having the hearing today.
    I am pleased, though, that all three of you are here to 
shed more light to the public on the President's decision. And 
I do think it will be revealing, and I think we will understand 
it better.
    And it is important to note that this is not the first 
action Congress has taken regarding this matter. Over the 
course of this year the committee has conducted multiple 
interviews with current and former State Department personnel, 
spoken to Acting Inspector General, and conducted an interview 
with Mr. Linick himself. My hope is with today's hearing that 
these key witnesses can answer any outstanding questions so we 
can put this matter behind us and turn our attention to the 
pressing matters that we have before us prior to the end of 
this Congress.
    I want to thank the witnesses for their service to the 
State Department, and to the Nation, and to its employees 
around the world. And I will say for the members' benefit there 
will be a classified briefing after this hearing. And just 
given the information I have received, I believe it will be 
very insightful to the members, insightful for the reasons that 
were taken by the President in firing Mr. Linick, especially as 
it pertains to national security.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. Pursuant to notice, the committee is 
convened today to hear testimony on why the President fired the 
Inspector General. Our witnesses this morning are the Honorable 
Brian Bulatao--sorry if I have mispronounced your name--Under 
Secretary of State for Management; Mr. Marik String, the Acting 
State Department Legal Advisor; and the Honorable R. Clarke 
Cooper, Assistant Secretary of State for Political-Military 
Affairs.
    As a matter of custom on this committee, we do not swear in 
witnesses, but obviously you are all required by law to answer 
questions from Congress truthfully.
    Without objection, your complete written testimony will be 
made part of the record of this hearing. And I recognize you 
for 5 minutes each to summarize your testimony.
    Mr. Bulatao, we will begin with you.

     STATEMENT OF HON. BRIAN BULATAO, UNDER SECRETARY FOR 
         MANAGEMENT, UNITED STATES DEPARTMENT OF STATE

    Mr. Bulatao. Mr. Chairman, Ranking Member McCaul, and 
distinguished members of the committee, I appear here today on 
a matter of great importance and great interest to both the 
committee and to the Department of State, and that is the 
critical role Inspector Generals have in reviewing and 
promoting the efficiency and the effectiveness of the 
operations of the executive branch, particularly the Department 
of State.
    With your approval, I would like to submit a written 
statement for the record. I will try and keep my remarks as 
brief as possible.
    Let me start by saying I have had the privilege of working 
with many Inspector Generals over the last 30-plus years, 
starting with my service as an infantry officer in the United 
States Army; continuing in my role as the chief operating 
officer of the Central Intelligence Agency; and currently now 
in my capacity as the Under Secretary of State for Management.
    Through these experiences I have gained firsthand 
appreciation for the critical role that IGs play in the 
executive branch. An effective IG illuminates. They shine the 
light on the areas that we need to improve, preventing and 
detecting waste, fraud, and abuse, so that we can collectively 
achieve outstanding results. We rely on the role of the IG to 
serve as a catalyst for effective management and internal 
controls, especially given the scope and our operations in 
every part of the globe.
    Unfortunately, Steve Linick did not fulfill this role. His 
failures were substantial and numerous, and fell into three 
broad categories:
    Failure to execute on the core mission of the IG; failure 
to take care of the IG team; and failure to lead with 
integrity.
    Let me expand upon each of those. Let me talk about failure 
to execute on the core IG mission. If you go to the State IG 
website you will see what their mission is. That is to conduct 
independent audits, inspections, and investigations.
    First, Mr. Linick failed to complete the Fiscal Year 2019 
annual audit of the State Department financial statements in a 
timely manner, as required by laws passed by Congress. The 
agency financial reports are a key accountability document and 
principal report to the President, the Congress, and to the 
American people to disclose our financial status regarding the 
assets and resources that you have entrusted to us.
    If we fail to get the audit right, I am not sure how 
effective we can be in identifying waste, fraud, and abuse. And 
many of you that have been in the private sector know that if 
we do not get audits right, then we have a big red flag going 
on.
    Second, why did we miss our critical deadline? The IG, Mr. 
Linick, failed to select a capable independent auditor in the 
spring of 2019. The one selected by IG Linick's Technical 
Evaluation Panel lacked the experience and the skill to 
complete the audit so the Department had no choice but to 
remove the lead auditor and restart the annual audit.
    By the way, there was a very real risk that we would have 
no opinion done by the time it was over.
    Third, why were we in the position of selecting a new 
auditor? The independent auditor from the previous year, that 
was directly supervised by the IG, had to be replaced due to a 
critical and deeply disturbing failure, which requires a 
classified setting to more fully explain.
    The investigative report that dealt with this failing in 
August 2017 noted the following, and I quote: ``oversight by 
the OIG was demonstrably ineffective . . . ultimately placing 
the Department's information as well as its reputation, human 
capital, and operations at a considerable unnecessary risk.''
    So, just on this core of conducting independent audits we 
had demonstrable ineffectiveness for oversight, we have had a 
failure to select a qualified auditor, and we failed to get our 
audit turned in in a timely manner. One out of 100-plus 
agencies that turn in their financials to OMB.
    Let's look at the second core IG mission, inspections.
    The total number of IG inspections at our overseas posts 
decreased by approximately 10 percent year over year for the 12 
months ended March 2019. This is all pre-COVID.
    Let's look at the third core IG mission, investigations.
    The total number of preliminary inquiries closed declined--
by the way, closed means we have opened it, the IG is reviewing 
it, and then they have been able to close it--the total number 
of preliminary inquiries closed declined by 27 percent year 
over year ending March 2020. So, again, not pre-COVID.
    There are some significant performance issues.
    Let me move to the second broad category that I mentioned, 
failure to take care of the IG team.
    First, there were some major red flags in the OIG 
Department's 2019 annual employee viewpoint survey, known as 
the FEVS survey. The Secretary had made a big push to increase 
our response rate. And we doubled the total number of responses 
to that survey from 2017. I think we had the highest percent 
response rate in many, many years. Over half of our 38 
assistant Secretary-led bureaus improved or maintained in all 
three major index categories year over year.
    Let me make sure you understand what those three index 
categories are. That is employment engagement, that is employee 
satisfaction, and that is diversity inclusion. So, over half of 
our 38 improved in all three of those categories. Many improved 
in at least two of those categories, or one.
    There was one out of our 38 bureaus led by an assistant 
Secretary for the same time period year over year, that 
declined in all three of those categories. That was the Office 
of OIG.
    What is more concerning to me is when I focus in on the 
satisfaction index, which let me tell you what that really 
means. This is the willingness, it measures the willingness to 
recommend the organization as a good place to work. The IG's 
Office experienced double-digit decline since 2016. We got a 
problem, and it starts with leadership.
    Second, this failure in leadership resulted in year-long 
key vacancies, including the deputy IG, the general counsel. 
And it does not surprise me now, seeing what the results of the 
FEVS survey were, that such a negative trend and folks' 
willingness to recommend the IG as a good place to work, no 
surprise that it took a long time to try and fill that No. 2 
position and why it stayed vacant for 12 months.
    Third, the OIG failed to provide status on training on the 
fundamental values of diversity and inclusion. It is our one-
team theme. We talk about professionalism, integrity, 
responsibility, and respect. And the OIG responded, and I 
quote, ``these are not our core values.''
    And, again, it does not surprise me, because when I look at 
specific aspects of the employee survey I will highlight these 
three.
    One question: employees, IG employees are protected from 
health and safety hazards on the job? The negative or neutral 
responses were 24 percent worse for the IGs than the Department 
writ large.
    Another question: my organization has prepared employees 
for potential security threats? 40 percent of the IG's work 
force answered negatively or neutral to that question, 40 
percent. At the State Department we had about 10 percent answer 
negative or neutral. That is a significant red line for me.
    The work I do is important? That answer was 42 percent 
worse than the State Department write large. Again, there is a 
leadership challenge here in the IG.
    Let me hit my third broad area that I mentioned. This is 
the failure to lead with integrity, and the one that is very 
concerning to me.
    First, the IG failed to self-report a leak of a draft IG 
report in September 2019 to the Council of Inspector Generals 
on Integrity and Efficiency, known as CIGIE--I will just call 
it the Integrity Council--as he was directed to by the 
Department. Instead, he hand-selected his own investigator, 
this was the DoD IG, without informing the Department.
    The deputy Secretary informed IG Linick very clearly that 
if he encountered any issues with referring this in writing to 
the Integrity Committee, these allegations of wrongdoing by him 
or by his designated staff members, to promptly inform him of 
any issues. That never happened.
    Second, he then repeatedly refused to share this report 
with the Department. He reports to and is under the general 
supervision of the Secretary of State by law and is not above 
accountability. The IG withheld the DoD IG report from the 
Department leadership and, as far as we know, the entire IG 
team, despite there being numerous requests calling into 
question to see this report.
    The IG's testimony suggested that we never asked for a 
copy. This is just plain false.
    Third, and very disturbing, the DoD IG report lead found 
that the IG emailed the highly sensitive draft report to his 
personal account on multiple occasions. I am not talking about 
two or three times, I am talking about eight times in the month 
of August, which is a clear violation of the OIG's own IT 
policy. Those mailings to his personal account were within 
weeks of the draft report being leaked to the media. This may 
explain why he refused to provide the report to the Department.
    IG Linick also admitted to speaking to Mr. Glenn Fine, the 
principal deputy IG at DoD, and actually Mr. Fine is the one 
that ended up being selected by the IG to conduct the 
investigation. Nobody recused themself from that. That is a 
major issue, a major conflict of interest in my mind.
    Fourth, in apparent attempt to shift the blame, IG Linick 
opened his own leak investigation in the Department for the 
very same issue that we asked him to refer to the Integrity 
Council, even though the leak that was in the media was 
attributed to, and I quote, ``two government sources involved 
in carrying out the investigation.''
    By the way, anybody in the State Department that touched 
that report we were going to look at them just as much. 
Everybody needed to be looked at. Unfortunately, the IG decided 
to look at our folks, just as he was not asking the Integrity 
Council to look at his team.
    Fifth, upon removal, he was instructed not to return to his 
office nor to contact his employees without prior 
authorization. We understand that he repeatedly violated this 
instruction and sought access to IG work product after the 
removal.
    So, let me conclude here. The IG's removal was not about 
retaliation on any specific report or investigation. There have 
been a variety of unsubstantiated allegations in the media that 
the Secretary recommended removal of the IG because of some 
awareness of these investigations. Nothing could be further 
from the truth.
    The deputy Secretary of State has issued a letter making 
clear that Secretary Pompeo was never briefed by the Deputy 
Secretary, the former Deputy Secretary, myself as Under 
Secretary of Management, nor the Executive Secretary on any 
investigation, allegations of misuse of government resources. 
This is just unequivocally without any factual basis or truth.
    The committee has sought hours of depositions from three of 
our civil servants in which the vast majority of time was spent 
on issues unrelated to the removal of the Inspector General. 
All three staffers stated multiple times that they had no 
information regarding the removal. And all three stated they 
only found out about it after the removal occurred.
    Let me just say, this removal was about an IG who in my 
mind was increasingly falling short of expectations. IG 
Linick's performance failed across all three areas. He failed 
to deliver and execute on the core IG mission. He failed to 
take care of his IG team. And he failed to lead with integrity.
    The IG's failure to perform in just one, one of these 
critical areas is sufficient to trigger a major loss of 
confidence.
    The Department deserves an IG that illuminates, not 
denigrates. The Department deserves an IG that promotes our 
shared values, not demotes them.
    And I look forward to your questions on why the 
recommendation was made for the removal of the IG. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Bulatao follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much, Mr. Bulatao. And I 
apologize for butchering your name before.
    Okay, Mr. String.

  STATEMENT OF MR. MARIK STRING, ACTING LEGAL ADVISOR, UNITED 
                   STATES DEPARTMENT OF STATE

    Mr. String. Mr. Chairman, Ranking Member McCaul, and 
distinguished members of the committee, thank you for the 
invitation to appear today.
    The committee initially requested my testimony in 
connection with my prior position as Deputy Assistant Secretary 
in the Political-Military Affairs Bureau, which I left nearly 
16 months ago. I understand that committee members may also ask 
questions today related to my current role as Acting Legal 
Adviser for the Department. I will do my best to address your 
questions based on my best recollection, consistent with my 
professional obligations as an attorney, and respect for the 
attorney-client privilege.
    The decision to remove a sitting Inspector General is 
committed exclusively to the President. We have provided the 
committee with a letter from the Office of White House Counsel 
that describes how the President's decision in the case of Mr. 
Linick was consistent with the requirements of the Constitution 
and of Federal law, as recognized by the U.S. Court of Appeals 
for the District of Columbia Circuit.
    As that letter notes, President Trump's notices to Congress 
used language similar to that used by former President Obama 
when he removed an Inspector General, noting that he ``no 
longer'' had ``the fullest confident'' in his ability to serve 
as Inspector General.
    In connection with today's hearing, the committee has also 
raised issues related to the Secretary's May 2019 emergency 
notification. I would like to touch briefly on the notification 
as well.
    First, the Department fully cooperated with the Office of 
Inspector General's review of the Secretary's emergency 
notification. The OIG interviewed 46 Department staff and 
received a significant number of documents, as requested. The 
Department did not stand in the way of the completion of the 
OIG's report, which ultimately concluded that the ``Emergency 
Certification Was Properly Executed.'' In fact, we facilitated 
its completion.
    Second, as the Department explained in its letter to the 
committee in June 2019, my designation as Acting Legal Adviser 
had, to my knowledge, no connection to the Secretary's decision 
to exercise his emergency authorities under the Arms Export 
Control Act. The designation was set in motion more than a 
month before this time when the then-Legal Adviser announced 
her departure in April.
    As I recall, the Office of the Legal Adviser developed the 
legal advice with the career attorneys in the Office of the 
Legal Adviser in advance of my transition to the office. I was 
expected to serve as a bridge between the former legal adviser 
and the confirmation of a new legal adviser based on my 
significant relevant experience and understanding of the 
functioning of the Office of the Legal Adviser.
    Leading that team of talented lawyers over the past 16 
months has been a distinct honor and privilege, and I 
appreciate their professionalism and commitment to serving our 
Nation, especially during these extraordinary times.
    Thank you again for inviting me to testify today. I look 
forward to taking your questions.
    [The prepared statement of Mr. String follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you.
    Mr. Cooper.

STATEMENT OF MR. R. CLARKE COOPER, ASSISTANT SECRETARY OF STATE 
  FOR POLITICAL-MILITARY AFFAIRS, UNITED STATES DEPARTMENT OF 
                             STATE

    Mr. Cooper. Mr. Chairman, Ranking Member McCaul, members of 
the House Foreign Affairs Committee, the topic of today's 
hearing is, ``Why did the Trump Administration Fire the State 
Department Inspector General?'' I will provide you the most 
comprehensive and honest answer I have:
    I do not know.
    With that, I would like to turn to matters of substance. I 
am glad to finally have the opportunity to apprise you of the 
status of our efforts to support our security cooperation 
partners in the Middle East.
    Two weeks after I took office in May 2019, Secretary Pompeo 
certified to you an emergency existed requiring the sale of 
certain defense articles and services to Saudi Arabia, the 
United Arab Emirates, and Jordan. In the days following 
certification I sat before your committee and testified that a 
combination of factors led the Secretary to determine the 
situation constituted an emergency and prompted him to make 
certification, including the significant increase in 
intelligence reporting on threat streams related to Iran; the 
clear, provocative, and damaging actions taken by Iran's 
government; and the need to affirmatively respond to military 
capability requests from our partners.
    As such, any response I provided members' questions during 
that 2019 hearing, including Representative Levin, must be 
understood in the context of my opening statement and State for 
the record, as well as my complete testimony before Congress, 
all of which are part of the public record, all of which are 
certainly available on what I would say the extended version of 
C-SPAN, or the full version of C-SPAN.
    Events since that time serve only to magnify the challenge 
Iran poses to the region and demonstrate the Administration is 
on the right side of history. One can draw from the line of 
attacks by the Iranian-supported Houthi on Saudi Arabia, to 
Iranian cruise missiles and drone attacks on key oil 
facilities, to attacks on U.S. forces and facilities in Iraq by 
Iran and Iranian-backed militias, to instability in Lebanon, 
and so on.
    As I wrote to you last month, since the Administration 
proceeded with the sales subject to emergency certifications as 
provided for in the law, Iran and the partners and proxies it 
supports continue to threaten not only U.S. partners, but have 
directly targeted U.S. personnel and military forces and 
facilities in the region.
    On that note, I would be delighted to brief the committee 
at a classified level on Iran, and am ready to do so as soon as 
this morning's closed session takes place, subject to the will 
of the chairman.
    But let me draw for you another line, from sanctions and 
emergency certifications dating back over 40 years, to the 
designation of the Iranian Revolutionary Guard Corps as a 
Foreign Terrorist Organization this spring, to the 
certification of emergency arms transfers to our partners and, 
ultimately, ultimately, as Mr. McCaul referenced this morning, 
the signing of the transformative Abraham Accords, not 24 hours 
ago and barely a mile from where we sit today.
    For this momentous normalization agreement between key 
American security cooperation partners in the Middle East, 
there is a common thread running along all of these actions--
ours and our partners--the need to establish a shared 
capability to respond to Iranian threats, be they direct or 
from proxies or partners, convention or unconventional, 
economic or military.
    And while we may disagree on some of the specifics of these 
responses, I know--I know--that you, Mr. Chairman, as you 
acknowledged in your opening statement, we do see eye-to-eye 
when it comes to the nature of the threat that Iran poses, and 
the need to ensure the security of our key partners in the 
region.
    Mr. Chairman, the recent Inspector General report into the 
emergency arms sales did not question these facts. It did not 
question the nature and existence of an emergency. Instead, the 
IG Report concluded the Secretary's emergency certification was 
executed in accordance with the requirements of the Arms Export 
Control Act.
    It is also true, however, the IG felt the Department could 
do more to reduce the risk of civilian casualties, and that may 
be as a result of U.S.-provided arms. That is a finding I not 
only accept, but which I, my bureau, the Department, and this 
Administration take to heart, which is why we were working to 
address, well before the IG even put pen to paper, and which we 
will continue to address.
    In April 2018, President Trump released an updated United 
States Conventional Arms Transfer Policy, or CAT, that, for the 
very first time ever, made it the explicit policy of the United 
States to facilitate ally and partner efforts, through United 
States sales and security cooperation efforts, to reduce the 
risk of national or coalition operations causing civilian harm.
    A year later, in March 2019, the President reaffirmed 
Executive Order 13732, which directs U.S. Government agencies 
to engage with foreign partners to share and to learn best 
practices for reducing the likelihood of and responding to 
civilian casualties, including through appropriate training and 
assistance.
    So, since the CAT policy was updated, the Department of 
Defense and the Department of State have been working together 
tirelessly to implement this guidance. We see reducing the risk 
of civilian harm as an enterprise-wide, inter-agency challenge, 
and have responded with a systemic program of reforms and 
innovations, examples of which I would like to briefly describe 
for the committee right now.
    We have created a new methodology to help us assess the 
risk of civilian harm associated with arms transfer, and have 
made process improvements to ensure our decisionmaking is 
informed by those assessments.
    The Defense Department has developed a new training 
curriculum for partners and allies on reducing civilian harm, 
and is developing a tailorable toolkit of advisory materials 
and services, essentially bespoke to the partner.
    DoD also identified a set of technical solutions to help 
partners reduce the risks of civilian harm, while also 
enhancing combat effectiveness. For example, the Advanced 
Targeting Development Initiative, or ATDI, is a suite of 
technical solutions and training intended for partners who 
deploy and use certain U.S. munitions, including Precision-
Guided Munitions, or PGMs.
    The ATDI provides enhanced support to key technical aspects 
of weapons employment and their proficiency, such as Target 
Coordinate Mensuration, Weaponeering, and the Collateral Damage 
Estimates. These capabilities enable allies and partners to hit 
their intended targets, and do that accurately; achieve the 
precise damage intended, and do so with the ability to estimate 
collateral effects in advance, and modify their engagements 
accordingly.
    With these processes, analytics, and toolkits now in hand, 
we also have been increasing our outreach to partners, and 
engaging with them proactively in discussions on how they can 
reduce the risk of civilian casualties to its lowest possible 
level. The right time for that conversation is now.
    These are significant and serious efforts, and they have 
been underway for quite some time. I am encouraged, Mr. 
Chairman, that both the Kingdom of Saudi Arabia and the United 
Arab Emirates have purchased Advanced Targeting Development. In 
doing so, they made clear their commitment to reducing the risk 
of harm to civilians, even as they battle an adversary who, 
judging by the frequency and inaccuracy of the Houthi drones, 
the Houthi rockets, and even ballistic missile attacks, would 
appear they have no such compunction.
    In sum, Mr. Chairman, during my time as Assistant Secretary 
of State for Political-Military Affairs, the Department and the 
Administration have identified the right threats, made the 
right decisions under the right policies to support the right 
partners.
    It is a team of national security professionals I am very 
much proud to be a part of. And I look forward to your 
questions.
    [The prepared statement of Mr. Cooper follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much.
    We will now go to the question part of our hearing. I will 
now recognize members for 5 minutes each, pursuant to the 
rules. All time yielded is for the purpose of questioning our 
witnesses.
    Because of the hybrid virtual format of this meeting I will 
recognize Members by committee seniority, alternating between 
Democrats and Republicans. If you miss your turn, please let 
our staff know, and we will come back to you.
    If you seek recognition you must unmute your microphone and 
address the Chair verbally. And as we start questioning, I will 
start by recognizing myself.
    We have so much to cover today, but at the outset I want to 
correct the record on a few things. I regret that Mr. Pompeo 
has attacked this committee, its staff, and myself during the 
course of this probe, all of it unfounded. And so, while I am 
glad you are all here today, it should not have taken this long 
from the start.
    I asked that you, Mr. Bulatao, appear for a transcribed 
interview to discuss why the Inspector General was fired. The 
Department rejected my offer and urged that you brief the 
committee privately.
    I think it is clear why that was not enough for us. When 
the committee conducts an investigation of this importance, it 
has to be done formally and on the record. We needed you and 
your colleagues to speak on the record before Democrats and 
Republicans on this committee to answer serious questions about 
the IG's firing.
    When the State Department offered that you testify, I 
immediately accepted. The Department pulled you back from our 
hearing at the last moment, and they conditioned your testimony 
on your not talking to anyone else on the record. I hope 
everyone here today understands that we could not accept that.
    So, again, it is good the three of you are testifying now 
but, frankly, we should have been able to do this a few months 
ago, and without the acrimony we have experienced.
    So, let me ask this question for everybody. Would you all 
agree that inspectors general serve an important function 
providing accountability and transparency? I would like to know 
yes or no.
    I want to start with Mr. Bulatao.
    Mr. Bulatao. Yes, Mr. Chairman. They perform a critical 
function.
    Chairman Engel. Thank you.
    Mr. Cooper.
    Mr. Cooper. Yes, Mr. Chairman. The Inspector General 
performs a very critical function.
    Chairman Engel. Thank you.
    Mr. String.
    Mr. String. Yes, Mr. Chairman. I agree.
    Chairman Engel. Thank you.
    Would you all agree that firing an IG in order to cover up 
wrongdoing would be an abuse of power? And yes or no. Let's 
start again with Mr. Bulatao.
    Mr. Bulatao. If you assume there is a cover-up of any 
wrongdoing, yes.
    Chairman Engel. Mr. Cooper?
    Mr. Cooper. The firing of the IG is the purview of the 
executive. If there was due cause, as has been laid out, there 
is no cover-up.
    Chairman Engel. Okay. Mr. String.
    Mr. String. Mr. Chairman, as we have described, the IG 
serves at the pleasure of the President.
    Chairman Engel. Okay. I am not quite getting an answer, but 
Okay.
    Let me ask you all this: do you acknowledge Congress' 
constitutional responsibility to conduct oversight of the 
executive branch policies and operations? Yes or no. Mr. 
Bulatao.
    Mr. Bulatao. Yes, Mr. Chairman, I understand the oversight 
responsibility of Congress.
    Chairman Engel. Thank you.
    Mr. Cooper.
    Mr. Cooper. Mr. Chairman, yes, understand the Article I 
authority and oversight of Congress.
    Chairman Engel. Thank you.
    Mr. String.
    Mr. String. Yes, Mr. Chairman, I recognize the oversight 
responsibility of the Congress.
    Chairman Engel. One last thing. Do you think I am 
conducting this investigation for my own personal 
aggrandizement?
    Let me answer that question. I do not enjoy this. Many of 
you have known me for a long time and understand that it is my 
profound preference to advance legislation and hold hearings in 
this committee in a bipartisan fashion. We call this committee 
the most bipartisan committee in Congress.
    And we always say that politics stops at the water's edge. 
And I believe very, very strongly in that. So, for me this has 
not been the most pleasant way to bring my 3-decade-long 
congressional career to a close. But I will tell you myself why 
we are here.
    We have real concerns on this committee that the firing of 
Mr. Linick was an abuse of power. And in the 4 months we have 
tried to get answers the State Department leadership has been 
petulant, insulting, evasive. The fact that we had to drag you 
up here kicking and screaming, itself makes me think that the 
Department has been trying to hide the truth.
    But, at this point we have heard all the excuses, we have 
heard all the half-truths, and we are past strongly worded 
letters and phony outrage. So, I want to be clear in this 
hearing room, my expectation is that you give this body the 
respect it deserves and answer our questions.
    I yield the balance of my time, and recognize the ranking 
member for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to first talk about, a little bit about policy. 
Secretary Cooper, you talked about this. You know, I think in 
foreign policies it is very important to define who you allies 
are and who your enemies are. That is why the chairman and I 
disapproved of the Iran deal under the previous administration 
because it empowered the largest State sponsor of terror.
    I believe Iran is our enemy, and their proxies, the Houthi 
rebels, are the enemy.
    I think it is ironic, the timing of this hearing when just 
yesterday we had this historic Abraham Accord, the first peace 
deal in the Middle East in 25 years, a quarter of a century, 
based upon the policies of this Administration. And I know the 
media may not pay a lot of attention to it, but it was 
historic. And I was there, proud to be there yesterday.
    I approved of the sale of these weapons to Saudi Arabia, to 
Jordan, and to UAE who came forward as our ally yesterday with 
Israel against Iran. I also approved it because they are 
precision-guided, as you mentioned. It actually decreased 
civilian casualties because of the precision-guided weapons.
    I think the threat from Iran is real, and that is why the 
Secretary made this policy decision to sell the weapons, as did 
the President.
    But, I want to go to Secretary Bulatao. I think the issue 
at stake here is was this a permissible firing? Of course the 
President, as legal counsel stated, has the authority, but did 
you have justification to do this?
    And you cited basically three main reasons, any of which I 
think would be adequate for the firing. But the first one is 
the failure to complete an annual audit mandated by Congress. 
The failure which actually violated the laws mandated by 
Congress. Can you tell me just on that one alone what impact 
does that have on the State Department?
    Mr. Bulatao. Thank you, Ranking Member. The impact is while 
we quickly recognized the team needed to come together to 
actually help focus and make sure that we did complete the 
audit, although 60 days later than it was required to turn in, 
the good news on that is a lot of the working level team from 
the inspection--the audit team from the IG came together.
    The disappointing news is that there was no IG leadership. 
I went to those weekly meetings to make sure we got that back 
on track. Not once did I see the IG Linick there himself.
    I went to when we actually got it done and we acknowledged 
the hard work that the team did, again there was a missing 
Inspector General Linick there. He was just absent for the 
process.
    Mr. McCaul. And it is hard to lead a department, the 
largest one in the U.S. Government, one of the largest, when 
you cannot even conduct an audit; right? I mean, that has 
consequences?
    Mr. Bulatao. Yes, sir.
    Mr. McCaul. Serious consequences.
    Mr. Bulatao. Well, if the role of the IG, who has been 
designated with the role to conduct this independent audit, 
cannot be done, how can we identify those areas that we have 
potential waste, fraud, and abuse? How do we know the assets on 
the balance sheet, the liability that is stated there? How do 
we know where these obligations are going?
    There are some significant areas that if we----
    Mr. McCaul. Which is the core mission of an IG is looking 
at waste, fraud, and abuse.
    Mr. Bulatao. Yes, sir.
    Mr. McCaul. And that is what an audit will reveal.
    The second thing that is going to come out in the 
classified briefing that I cannot get into, but in your 
testimony you said the auditor put our national security at 
considerable risk. And I know you probably cannot comment on 
that. But I just want to reiterate that statement, because for 
the press reporting this hearing I think that is a very 
important point: failure to manage the IG team, with key 
vacancies; failed on diversity inclusion. The IG is saying 
these are not our core values.
    I would think on both sides of this aisle, both Democrat 
and Republican, that those are core values of this Nation is 
diversity inclusion.
    Failed to lead with integrity. Leaks a draft report to the 
media that is not even shared with the Secretary.
    And then, finally, these allegations of personal 
misconduct, the Secretary did not even know about these 
allegations because he did not see the report. So, the idea 
that somehow that led to the firing of Mr. Linick really is 
factually the evidence does not support that because the report 
was not given to him. He had no knowledge of these allegations, 
so how can that create some fiction that he fired Mr. Linick 
because of these so-called allegations of personal misconduct? 
To me it is mystifying.
    I am glad you are here. I am glad we are going to get 
through this exercise. But I think this Nation and the State 
Department has far more serious business, and this committee 
does as well.
    And I do appreciate the chairman's comments, though, about 
this committee, our oversight functions. And under Article I of 
the Constitution it is embodied in what our founding fathers 
stood for. But I think it is time to move on.
    And with that, I yield back.
    Chairman Engel. Before I call on Mr. Sherman I just want to 
say that I, too, was at the White House yesterday, and I, too, 
think that the accords between Israel and the Arab States are 
good and important. And I commend the President and everybody 
who was involved with it. But, obviously, this is a separate 
issue that we are talking about.
    Mr. Sherman.
    Mr. Sherman. Thank you for having this virtual and in-
person hearing. And after I ask my questions I will vacate my 
spot here so that others can ask their questions in person.
    The questions before us is why was the Inspector General 
fired? Mr. Bulatao offers us two rather easily dismissed ideas. 
The first is that the audit report was late.
    As co-chair of the bipartisan CPA Caucus, and the only 
professional auditor in this room, I assure you that was not 
the reason. If you look at the Department of Defense and other 
departments, the State Department being a few weeks late with 
its audit report is tiny compared to other agencies and their 
late or nonexistent audit reports.
    But if being late with reports is reason to fire somebody, 
why are we focusing just on audit reports? They are not matters 
of life and death. State Department foreign policy and this 
committee's decisions affect life and death, and they are 
chronically late.
    So, Mr. Bulatao, since you are running management over 
there, since these legally required reports are incredibly 
late, would not you yourself resign if late reports, critically 
necessary for policy matters of life and death, are late under 
your watch?
    But then we are told that we should fire the attorney--the 
Inspector General because of low morality according--low morale 
in surveys. Mr. Bulatao, if you had any integrity, you would 
also be calling for the resignation of Secretary Pompeo.
    All of us in this room know what morale is like in his 
State Department. And we do not have to rely on surveys where 
maybe somebody does not want to say anything bad that hurts 
their immediate supervisor because they and their immediate 
supervisor are all united. But this State, the service in the 
State Department is a incredibly difficult and depressing thing 
to do. And we have people with media contacts in the State 
Department right here on this committee.
    If low morale is reason for someone to be fired, look up, 
not down.
    So, the real question here is why was the attorney 
general--or Inspector General fired? And there are two possible 
reasons. One is that he was investigating the myriad of ways in 
which State Department resources were being used to meet the 
political and personal needs of Secretary Pompeo.
    Or, two, that a bizarre decision was reached to evade 
Congress on the sale of weapons to Saudi Arabia and nearby 
countries.
    I agree with Mr. Cooper. Which of these two? You say you do 
not know. I do not know.
    But, I am going to focus on evading the law because that is 
a matter of life and death: those weapons kill. And so we ask, 
what is the emergency?
    The emergency is that Congress might prevent the 
Administration from doing what it wants. You see, the emergency 
here is that--is not that an imperial presidency would shred 
the Constitution, but rather that Congress would assert its 
constitutional rights and endanger the imperial presidency.
    The ranking member puts forward the idea that because 
success was reached in an important aspect of the Middle East 
that, therefore, we--violations of the Constitution and the 
laws we pass to implement it is retroactively legalized.
    I have read the Constitution. There is nothing in there 
that says the executive branch can ignore congressional 
prerogatives if they are able to do, arrange a peace agreement 
with Bahrain and the United Arab Emirates.
    Now, Mr. Faulkner testified that the murder and 
dismemberment of Jamal Khashoggi was perceived as the 
emergency. The emergency was Congress might actually look at 
these arms sales and reach a different conclusion. They ``made 
it harder'' to get the sales approved. And, of course, the 
President says he saved the crown prince's ass for 
accountability for that murder.
    Mr. String, who did you talk to at the White House about 
this emergency declaration and the need to issue it to prevent 
Congress from rejecting the arms sale? Did you talk to Mr. 
Jared Kushner? Did you talk to Peter Navarro?
    Mr. String. Thank you, Congressman, for those questions.
    Just one point of clarification. I believe, as I recall, 
Congress did vote on these sales ultimately.
    But to your question, I do not recall ever speaking with 
Mr. Kushner during my time in the Political-Military Affairs 
Bureau.
    I recall speaking to Mr. Navarro, but I do not recall 
speaking to him about any particular emergency declaration.
    Mr. Sherman. And since this is a--you have been interviewed 
as a fact witness on this, is it also appropriate for you to be 
the lawyer and the fact witness in this matter?
    Mr. String. Thank you for that, that question, Congressman.
    So, I take ethics obligations very seriously, as we all do 
in the Department. We have consulted. I have consulted 
extensively with the career designated agency ethics official 
in the Department. He has confirmed that attendance in meetings 
by those who were also interviewed was entirely appropriate in 
this case. And a few facts support that view.
    First, the IG review was not an investigation of misconduct 
by the Investigations Unit, rather it was a----
    Mr. Sherman. I believe my time has expired. And we 
understand the gist of your answer. And I will just say that if 
people are going to be fired because there is low morale, it 
starts at the top.
    I yield back.
    Chairman Engel. Thank you.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. And I thank our 
distinguished witnesses.
    I am glad that this committee has finally accepted one of 
your numerous offers to appear before us. We are here today 
because the members of this committee care about accountability 
in our government. And that is the case, and if it is the case 
then I have one question.
    Why are some of my colleagues defending former Inspector 
General Steve Linick? Under his leadership, the number of 
inspections conducted by the DoD OIG across embassies worldwide 
declined significantly. Former IG Linick also failed to 
complete a financial audit of the Department in a timely 
manner, and had to ask for an extension. His appointment of an 
unqualified auditor set the process back even further.
    He was further investigated by the DoD's Office of 
Inspector General for being the leak behind a sensitive draft 
evaluation of a State Department official. And I find it 
particularly egregious as a person who is privileged to hold a 
Top Secret security clearance for decades.
    At the time of his departure, Mr. Linick was under 
investigation for leaking classified information to the press, 
and had sent sensitive material to his personal email account 
numerous times in the span of 6 months, again an egregious, an 
egregious accusation.
    When he received the DoD Inspector General Report on March 
17th, which detailed a number of improprieties committed under 
his own IG rules, Mr. Linick decided not to inform State 
Department leadership that he had the report. And during his 
testimony before members in early June, Mr. Linick denied that 
this report was even of interest to the Department.
    He then went on to make numerous other claims in testimony 
that would explain why the report was not delivered, starting 
by blaming the Department itself, and its leadership, for 
failing to followup on the report's status, to then saying that 
he preferred to relay the results of the report in person, then 
to citing COVID-19 for not conveying the report in a timely 
fashion, to then saying that there was no reason for him to 
keep the report away from key stakeholders, to finally 
admitting on pages 124 and 125 of the DoD IG Report that he 
knew the Department leadership wanted the results of the 
investigation.
    Mr. Linick intentionally sat on an IG Report. Think about 
that for a moment. An inspector general chose to withhold the 
results of an important investigation that could compromise his 
reputation and career. The only mistake this President made in 
firing Steve Linick was not doing it sooner.
    Let this hearing serve as yet another example, regrettably 
so, that demonstrates how the Left wastes taxpayer resources, 
they are willfully defending a former Inspector General in the 
name of accountability, all the while blatantly ignoring the 
fact that Mr. Linick failed to hold himself accountable. There 
is simply no good reason why Mr. Linick withheld the DoD 
Inspector General Report instead of providing it to the 
Department leadership as he should have, none at all.
    My colleagues on the other side have made numerous 
incorrect claims regarding this topic. Unfortunately for them, 
facts matter. If this committee wants to answer their own 
question, why did the Administration fire the Inspector 
General? I can tell them the answer. Mr. Linick was a threat to 
the principle of accountability in government plain and simple.
    I commend the President for exercising his authority 
granted by the U.S. Congress to remove Mr. Linick from office. 
The fact that members of this committee would defend Mr. 
Linick's conduct runs contrary to our duty to maintain the 
public trust.
    I do have one question for Under Secretary Bulatao. Does 
the IG have the legal right to withhold final internal reports 
from the Department leadership?
    Mr. Bulatao. Congressman Perry, that is why we have asked 
the IG to refer this matter, investigation on his conduct to 
the Integrity Counsel, because the requirement in the IG Act 
requires that report to come to the leadership of the 
Department. So, the answer is no, it should not--does not have 
that authority to withhold that.
    Mr. Perry. Does not have the authority. But did withhold 
it, did not he?
    Mr. Bulatao. Yes, sir.
    Mr. Perry. All right. I yield the balance of my time, Mr. 
Chairman. Thank you.
    Chairman Engel. The gentleman yields his time.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me see if I can get something, understand some things. 
And I will ask my questions of Mr. Bulatao.
    So, did you, Mr. Bulatao, recommend to Mr. Pompeo that Mr. 
Linick be fired? And did Mr. Pompeo then take that to the 
President? How did that? Did you recommend it to Mr. Pompeo?
    Mr. Bulatao. Congressman, I cannot speak about my 
conversations with the Secretary. The Secretary has already 
made it known it was his recommendation to the President to 
remove the IG.
    Mr. Meeks. I'm asking about your role. Did you make that 
recommendation or was that recommendation straight to Mr. 
Pompeo or the President?
    Mr. Bulatao. That recommendation was from the Secretary to 
the President.
    Mr. Meeks. So, you were just instructed to go fire Mr. 
Linick?
    Mr. Bulatao. Well, the Deputy Secretary had the 
conversation regarding the removal of the IG. I was part of 
that phone conversation.
    Mr. Meeks. Well, I am saying you had a meeting with Mr. 
Linick; is that not correct? And you fired him on a Friday 
night in mid-May. That was you; correct?
    Mr. Bulatao. No, sir. That is the point I was trying to 
make.
    There was a phone call on May 15th, in the evening, in 
which case the Deputy Secretary of State notified Mr. Linick 
the President had lost confidence in his ability and was 
removing him from the role of Inspector General at the State 
Department. I was on that phone call.
    I then proceeded to provide administrative instructions to 
Mr. Linick, and let him know that he would receive a letter as 
soon we hung up from the White House Personnel Office notifying 
him of his removal, and that he would be placed on 30 days of 
administrative leave pending a final removal date.
    Mr. Meeks. So, was Mr. Linick given a reason why he was 
being fired?
    Mr. Bulatao. Congressman, as I, I just stated, Mr. Linick 
was told by----
    Mr. Meeks. Based upon what you heard. You were on the phone 
call. Did he, was he given a reason?
    Mr. Bulatao. Yes, he was give----
    Mr. Meeks. He said he asked for a reason. Was he given one?
    Mr. Bulatao. Yes. He was provided the reason that I just 
stated.
    Mr. Meeks. But he said he was not given one, that he was 
shocked to get--not to get any explanation after 7 years on the 
job for why he was being fired with no warning. So, are you 
saying Mr. Linick is a liar?
    Mr. Meeks. Congressman, what I am saying is the Deputy 
Secretary informed Mr. Linick the President, at his authority, 
his discretion had lost confidence in his ability and, 
therefore, was removing him from the role of IG. That was the 
reason provided to Mr. Linick Friday evening on that phone 
call.
    Mr. Meeks. See, what confuses me is the fact that 2 days 
after he was fired I believe it was you that told The 
Washington Post that he was fired because of a pattern of 
unauthorized disclosures or leaks. Was that not you?
    Mr. Bulatao. Well, as I----
    Mr. Meeks. Did you not inform The Washington Post of that?
    Mr. Bulatao. Congressman, as I laid out in my testimony 
earlier, there were numerous reasons why I believe personally 
that the Inspector General failed to perform. I talked about 
those three core areas where he failed to perform.
    Mr. Meeks. Yes or no, did you tell The Washington Post that 
the reason that he was fired was because of a pattern of 
unauthorized disclosures or leaks? Yes or no.
    Mr. Bulatao. Again, the comments that were made----
    Mr. Meeks. It is a simple yes or no.
    Mr. Bulatao. I do not to my recollection----
    Mr. Meeks. Either you did or you did not.
    Mr. Bulatao. I do not to my recollection recall having a 
direct conversation with The Washington Post.
    Mr. Meeks. Well, I am going to direct you to that 
Washington Post. Because it seems as though, to me, that Mr. 
Linick testified he was not given any information. So, now 
after your, after reading your testimony today there are many 
reasons that are now being given.
    And I agree with Mr. Sherman in that if it is legitimate 
because he failed to lead with integrity, then we have to look 
at the top. And it is evidenced by what is taking place, by the 
number of career diplomats and talent that have left the State 
Department as a result of Mr. Pompeo and the low morale that 
there is.
    So, let me just, one more question. I see I am running out 
of time.
    And I remind you, I understand that you are not under oath, 
but if you provide false testimony that would be a Federal 
crime of a false statement.
    Did Mr. Linick tell you that he had talked to CIGIE and 
CIGIE had informed him that CIGIE was not the appropriate body 
to conduct the investigation into the leaks? Yes or no.
    Mr. Bulatao. The question that I asked Inspector General 
Linick is if he had provided a written referral to the 
Integrity Council, CIGIE. The answer was no, he did not provide 
a written referral. Instead, what he described to CIGIE was 
that the State Department was looking to investigate his 
office.
    That is not the instruction we provided Inspector General 
Linick. What we said is----
    Mr. Meeks. But your letter----
    Mr. Bulatao [continuing]. We are investigating you, 
Inspector General Linick, because of allegations of potential 
unauthorized disclosure.
    Mr. Meeks [continuing]. To the State Department, your 
letter to the State Department only learned months later.
    Mr. Bulatao. That is what we had asked him to refer to 
CIGIE. That did not happen.
    Mr. Meeks. Your letter, sir, your letter, sir, to the State 
Department said the Department only learned months later that 
the referral was not made to CIGIE but to a different IG. Now, 
again, Mr. Linick testified that your statement isn't true, and 
that he told the Department at the time that CIGIE did not have 
jurisdiction and that he did not--and that he had been advised 
by CIGIE to get another IG's office to do that, not a violation 
of anything or anything.
    It seems to me, sir, that with these multiple after-the-
fact reasons the insinuations that were made by the chairman of 
the committee that could this be a cover-up by the Secretary 
and the President? Because it seems to me when you look at 
Webster and the definition of cover-up is an unusually 
concerted effort to keep an illegal or unethical act or 
situation from being made public.
    And what has taken place in Yemen, and the killing of 
innocent individuals, and getting around Congress to get this 
to have the sale of someone who is friendly, based upon the 
President's own admission the crown prince, him and his son-in-
law, seems to me, sir, to be leading to an actual cover-up, and 
the IG was going his job and he was being stopped by you, the 
Secretary of State, and the President of the United States.
    I yield back my time.
    Chairman Engel. The gentleman yields.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. And, gentlemen, thank 
you for being here and your testimony and your patience.
    Mr. Bulatao, you said in the very beginning the critical 
role the IG plays in the executive branch is to shine light on 
areas that need to be improved, and to improve those. And, 
obviously, we all think that is a good thing because we want to 
get rid of waste, fraud, and abuse. I think we are all in 
agreement with that.
    Then you mentioned the three key missions, as Chairman 
McCaul pointed out: mission execution, protect the team, and 
lead with integrity.
    Just for the record, for clarity, were those three things 
upheld by IG Linick?
    Mr. Bulatao. No, sir.
    Mr. Yoho. Okay. Mr. Cooper, you said that you were not sure 
why he was relieved. Do you feel that IG Linick lived up to 
those three mission statements?
    Mr. Cooper. Based on the information provided here today, 
no.
    Mr. Yoho. Okay. Mr. String?
    Mr. String. Congressman, I believe Under Secretary for 
Management laid out a comprehensive case as to the failings of 
the IG on those three metrics.
    Mr. Yoho. Okay. So, for the record, IG Linick did not meet 
what he was tasked to do.
    It has been said in this testimony, Under Secretary Bulatao 
and Mr. Cooper, that President, the President has personal, 
just personal will to remove an IG at will. Is that correct? 
Everybody is in agreement with that?
    Mr. Bulatao. Yes, sir. It is his authority.
    Mr. Yoho. It is his authority.
    Mr. String, and Mr. Cooper, I know you want to say.
    Mr. String. His executive authority.
    Mr. Yoho. Okay. At his discretion; right?
    Does removing an IG due to lack of confidence in that 
individual constitute an acceptable, and acceptable reason for 
removal of an IG?
    Mr. String. Sir, that rationale has been upheld by the 
courts.
    Mr. Cooper. Yes, sir.
    Mr. Bulatao. Yes, sir.
    Mr. Yoho. Okay. So, we are all in agreement with that. And 
that is good because the hypocrisy that we see, or the double 
standard when we go back to President Obama when they removed 
IG Walpin in 2009, who was investigating, he was the IG for the 
Corporation for National Commerce Services, the Federal agency 
overseeing organizations like AmeriCorps. And they, AmeriCorps, 
was granted by this agency, or AmeriCorps granted to this non-
profit $850,000.
    As IG Walpin went through, it was St. HOPE ultimately had 
to repay $400,000 because what they found out is St. HOPE was 
run by soon-to-be Sacramento Mayor Kevin Johnson, who was a 
large donor to the Obama Administration. And they found that 
the money had been used. It was supposed to be to help tutor 
local students, redevelop some buildings, and enhance theater 
and art programs.
    Walpin's team found out, however, that the money had been 
used instead to pad staff salaries, meddle politically in a 
school board election, and have AmeriCorps members perform 
personal services for Mr. Johnson, including washing his car, 
the Journal reported.
    So, when this gets exposed, I think it was Norm Eisen and 
Mr. Johnson went after this guy and removed him because they 
said that President Obama did not have his full confidence.
    So, the hypocrisy we are seeing here today is just 
unconscionable. Just it amazes me, this committee is supposed 
to be apolitical. We pride ourselves on that. But I am not 
seeing it. In fact, I have not seen it this whole year, Mr. 
Chairman, and it saddens me.
    And so, with what I have heard from you, the relieving of 
duty of IG Linick was more than acceptable. It was not 
President Trump just did not have confidence in this guy, he 
failed to meet the required time period.
    Chairman Engel. Will the gentleman finish? The gentleman's 
time has expired.
    Mr. Yoho. Thank you, Mr. Chairman. And I yield back.
    Thank you, gentleman. And I appreciate the job you do.
    Chairman Engel. Thank you, Mr. Yoho.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Bulatao, can we just--Bulatao, Okay, thank you--Mr. 
Bulatao, the committee asked the Inspector General to review 
the false 2019 emergency that the Administration declared to 
pursue that $8 billion in arms sales. And since then, we have 
learned that the IG's investigative work was largely done by 
the end of 2019.
    Inside the Department, obviously the buck stops with 
Secretary Pompeo, right, he is the one who makes, he is the one 
who makes determinations like this about the emergency?
    Let me just go on, Mr. Bulatao. Mr. Linick testified that 
in this inquiry you, like always, were the gatekeeper for 
Secretary Pompeo and that you, as per his testimony, in this 
case helped keep the gate shut. He asked in late 2019 for an 
interview with the Secretary, and you asked Mr. Linick for the 
topic areas he wanted to discuss with the Secretary. That's 
right, isn't it? And what were those specific topics that the 
IG told you he wanted to discuss?
    Mr. Bulatao. Congressman, as I recall that conversation I 
asked the IG are there any areas that I can help you with, 
which was normal, normal thing I did during our biweekly 
meetings.
    Mr. Deutch. Right.
    Mr. Bulatao. And what he responded to me was, yes, there 
is. We are complete, we have completed our investigation of the 
Saudi arms sale, except for interviewing the Secretary.
    Mr. Deutch. Right. And he----
    Mr. Bulatao. My question to him----
    Mr. Deutch. Did he, and did he, right, so did he give you 
any information on the topics that he wanted.
    Mr. Bulatao. My question to him was----
    Mr. Deutch. Well, I am just asking you the question. Did he 
give you topics that he wanted to discuss with the Secretary?
    Mr. Bulatao. Not at that time.
    Mr. Deutch. Ever?
    Mr. Bulatao. Oh, I can tell you, I can tell you the 
circumstances that----
    Mr. Deutch. I do not need the whole story. I just want to 
know what the topics were that he wanted to discuss with the 
Secretary.
    Mr. Bulatao. He wanted to discuss the policy decisions that 
went into that decision.
    Mr. Deutch. Right. Did he want to ask about conflicts of 
interest in the emergency declaration process? Was that, did he 
tell you that?
    Mr. Bulatao. What we ended up doing was----
    Mr. Deutch. No, I am just asking. Did he ask?
    Mr. Bulatao [continuing]. Asking me----
    Mr. Deutch. I do not want to know what you ended up doing.
    Mr. Bulatao. Asking me to write down questions.
    Mr. Deutch. Did he ask you about conflicts of interest?
    Mr. Bulatao. The questions were written down and we 
provided answers to those.
    Mr. Deutch. No, no, I understand. I am asking very 
specifically, and I would like you to respond specifically, did 
he want to ask about conflicts of interest in the emergency 
declaration process?
    Mr. Bulatao. I was not involved with those conversations 
with the Inspector General. That is what I am trying to tell 
you.
    Mr. Deutch. Did he want to ask about Jared Kushner's 
involvement in the arms sale? Did you know that? Was that made 
clear to you at any point?
    Mr. Bulatao. I was not involved with conversations with the 
IG nor----
    Mr. Deutch. You had no idea what he wanted to speak to the 
Secretary about?
    Mr. Bulatao. I just told you what he wanted to speak to the 
Secretary about.
    Mr. Deutch. And there was no specific, nothing specific?
    Mr. Bulatao. That is what we were asking. That is the 
conversation we were having. We were trying to understand that 
in order to, in order to schedule the time.
    So, what I committed to the IG is help us understand what 
you need to ask. We will try and get you the time to go and 
meet with the Secretary.
    Mr. Deutch. No, no, no, I am not asking--right, I am not 
asking about specific questions. I am asking did he raise with 
you the topics in any more specificity than you are telling us 
now?
    Mr. Bulatao. Not, not with me.
    Mr. Deutch. With whom then?
    Mr. Bulatao. I was not involved in any other----
    Mr. Deutch. Was there anyone--the buck stops with the 
Secretary. You are going to make the determination about 
whether this interview takes place, so, not with you. Is there 
anyone that you are aware of that the Inspector General 
detailed the subject matter that he wanted to discuss with the 
Secretary?
    Mr. Bulatao. He provided a list of written questions that 
we then subsequently answered upon getting those questions.
    Mr. Deutch. Mr. String, are you aware of any of the topics 
that he wanted to discuss?
    Mr. String. Congressman, as Under Secretary Bulatao----
    Mr. Deutch. Are you aware of any, just are you aware of any 
of the topics that he, that the Inspector General wanted to 
discuss?
    Mr. String. He was focusing on the policy decisions, 
Congressman.
    Mr. Deutch. I understand. With specificity, was there any 
specificity?
    Did he want to ask about Secretary Pompeo's knowledge that 
the Saudis had previously used weapons that the U.S. sold them 
to commit possible war crimes? Was that something specific that 
might or--that he explained?
    Mr. String. Congressman, you are getting into----
    Mr. Deutch. Just a yes or no.
    Mr. String. You are getting into some internal 
deliberations.
    Mr. Deutch. I am just asking about the topics. There is 
no--I am not asking about deliberations. I am asking did the 
Inspector General tell you or anyone that you are aware of at 
the State Department that he wanted to discuss with the 
Secretary of State whether Secretary Pompeo had knowledge that 
the Saudis had previously used weapons that the U.S. sold to 
them to commit possible war crimes? Or, did he want to ask 
about Jared Kushner's involvement in the arms sales?
    I am not worried about deliberations. I want to know 
whether you were aware of what he wanted to discuss with the 
Secretary. It is just a yes or no question.
    It is just a yes or no question.
    Mr. String. Thank you, Congressman. So, you are getting 
into investigatory questions posed by----
    Mr. Deutch. No, I am not. I am not getting into questions. 
I am not. I am asking about topics. There is nothing 
classified, there is nothing about--I am not asking about 
internal deliberations. None of that has anything to do with 
the Inspector General simply telling you that these are the 
topics he wanted to discuss with the Secretary of State.
    Mr. String. Congressman----
    Mr. Deutch. And I am asking you whether he gave you those 
topics?
    Mr. String. Congressman, again, he was looking at the 
policy decisions and a time line for----
    Mr. Deutch. Did he give you, was there, was there the kind 
of specificity that I have asked about? That is all I am 
asking. It is a yes or no question.
    Mr. String. Congressman, the questions presented by the IG 
were focused on the policy deliberations.
    Mr. Deutch. I understand. I understand.
    I am asking when he came to you, Mr. Bulatao, you are the 
gatekeeper. When he wanted to meet with the Secretary of State 
did he provide to you, or to Mr. String, or to anyone at the 
State Department a list of topics that he wanted to discuss 
with the Secretary? I do not want general policies. I want to 
know did he give you any of those specifics; yes or no?
    Mr. Bulatao. Congressman, my role was not the gatekeeper, 
my role----
    Mr. Deutch. Yes or no.
    Is there anyone on this panel who can answer this question? 
It does not seem that difficult. And when all you want to do, 
Mr. Chairman, when all you want to do is tell me that he wants 
to talk about policies, we, guess what, we know that that is 
what he wanted to talk about. And we are trying to figure out 
why he was not allowed to do it and why he was ultimately 
fired. And you cannot even tell us whether these were the 
issues that he wanted to talk about.
    If you are aware that he wanted to talk about policy, then 
it certainly sounds like you are aware of exactly what those 
policies were, and Secretary Pompeo deserves to give the 
American people some answers to these questions and some 
accountability.
    And I yield back.
    Chairman Engel. The gentleman's time has expired.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    All that time cutting you off maybe gotten the answer that 
they were looking for. He said, you know, ultimately Mr.----
    Mr. Deutch. Mr. Kinzinger, I was asking a yes or no 
question.
    Mr. Kinzinger. I am not going to argue with you about it. I 
am just making the point that that was about a 3 minute thing 
that if they would have been able to develop maybe you would 
have gotten the answer you were looking for.
    In terms of why, we want to ultimately get to why he was 
fired, I think, sir, you put out a really good reason. And 
quite honestly, I think had you not fired him we may be here at 
this very moment attacking you for not firing him for not 
having everything done on time. And it is the season we are in.
    And I appreciate you all being here. Thank you, Mr. 
Chairman, for holding this hearing.
    You know, oversight is, of the executive branch is 
something we do. It is core to what we do. And I believe we 
should be using this precious platform not for politics but for 
advancing foreign policy priorities. We have the Russians 
meddling in yet more European elections, potentially even in 
ours.
    Belarus we have going on. Peace deals being signed. 
Communist China is continuing to grossly violate the human 
rights of the Uyghurs and Hong Kong. Yet, we are using this 
time to debate something that past administrations have done, 
which is to fire an inspector general for failing to do their 
job.
    We need this, hopefully maybe after the election, to get 
back to focusing on big, important things going on around the 
world.
    Assistant Secretary Cooper, I want to first start off with 
the important role that the Political-Military Affairs Bureau 
at the State Department plays in American foreign policy.
    How do arms sales support our foreign policy priorities? 
And why is it important that the State Department maintains the 
authority over arms sales?
    Mr. Cooper. Thank you, Congressman. And it is not just the 
authority over arms sales, it is also the authority and the 
imprimatur on Title 22 and Title 10 security assistance. So, it 
is the whole package.
    But, if one looks at arms transfers, arms sales, security 
assistance, this would be including of IMET, International 
Military Education and Training, all of those things are 
implements to actually achieve our foreign policy objectives. 
Essentially our chiefs of mission forward, our embassies 
forward have a host of toolkit available to them.
    These implements that reside within the political-military 
portfolio are some of the most significant and some of the most 
tangible implements of foreign policy that we provide. They are 
often there to make sure that a partner is able to actually, 
from a security standpoint, not only provide for their 
security, their sovereignty, in many cases there is a shared 
burden or shared adversity that they are facing on our behalf. 
And in some cases we have partners that are actually 
prosecuting on our behalf.
    So, if one looks in the whole total of the package of what 
is available, it is to enable partners, bring them closer 
together. It is also essentially the grandest level of burden 
sharing.
    But, I would go back to all security assistance, even the 
security assistance that resides under the Department of 
Defense authority, at the end of the day there is State 
Department imprimatur and concurrence on that because we want 
to make sure, regardless if it is an excess defense article, 
something new, we want to make sure that it actually does 
contribute to those ways and means of a strategic end.
    Mr. Kinzinger. Well, let me ask you something. Do we have 
non-friendly competitors out there that could fill this void if 
we do not?
    Mr. Cooper. We absolutely do.
    Mr. Kinzinger. Like who?
    Mr. Cooper. Well, if we look from Great Power competition 
we are looking at our adversaries, our competitors in places 
like Moscow and Beijing. You mentioned them earlier. It is why 
we have tailored some of our foreign military assistance, some 
of our foreign military financing to encourage partners to come 
closer to the United States, to be interoperable with our 
forces, to be interoperable with, say, NATO allies. It is why 
we have some specialized programs like the CRIF, the Countering 
Russian Influence Fund, and a more recent one, the CCIF, the 
Countering Chinese Influence Fund.
    All of these, again, are part of that broader toolkit that 
we make available to our chiefs of mission.
    In many cases there is a suite of these tools that also are 
tied to arms transfers.
    Mr. Kinzinger. Let me ask you, also, real quickly, when you 
talk about Yemen, real quick, 200, there has been over 200,000 
deaths. The U.N. estimated that nearly 18,000 were combat-
related civilian casualties. How have the Houthis, or how has 
Iran attempted to address non-combat-related death?
    Mr. Cooper. In an open fora I can tell you very clearly 
that there is, as I mentioned in my testimony, there is no 
compunction, there is no rule of armed conflict that is being 
followed by Tehran. There is none of that by the Houthi rebels.
    If anything, we have seen a direct threat to civilian 
populace. And that is, again, something I would be happy to 
talk to in more detail in a classified space. But do know that 
when we talk about the risk to civilians, the risk to civilian 
infrastructure, the Houthis, they have no parameters.
    Mr. Kinzinger. Excellent.
    Thank you. I yield back.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Mr. Chairman, can you hear me?
    Chairman Engel. Yes. We can hear you fine.
    Mr. Keating. Thank you.
    Since the beginning of the conflict in March 2015 in Yemen 
it has clearly risen to a worldwide humanitarian crisis: 24 
million people, 12 million children all in humanitarian need, 
127,000 dead, 13,500 children targeted. So, I am about to ask 
some questions to Mr. Bulatao about documents, about 
transparency, about information.
    But, I want people to focus on two things, two images: 44 
children targeted and killed in a school bus; another image 
just within the last 3 months of almost a dozen other children 
killed. One strike occurred the celebration of a newborn boy. 
He did not survive. He did not live to be 1 week old.
    So, with that in mind I would like to ask questions of Mr. 
Bulatao, if I have that right. It is Bulatao; is that correct, 
Mr. Bulatao?
    Mr. Bulatao. That is correct. Bulatao.
    Mr. Keating. I just want to get it as correct as I could.
    You oversee the State Department's Bureau of 
Administration; correct?
    Mr. Bulatao. Correct.
    Mr. Keating. And that, in part, oversees information 
provided to Congress and our requests; correct?
    Mr. Bulatao. That is part of the scope of responsibility, 
sir.
    Mr. Keating. Indeed, it includes the congressional Document 
Production unit; correct?
    Mr. Bulatao. Correct.
    Mr. Keating. And this was started under the Obama 
Administration at the request on concerns with Benghazi. They 
reprogrammed $4 million so to be able to respond quickly to 
congressional investigations. And, indeed, then Congressman 
Pompeo, part of the Benghazi Committee, sought thousands and 
thousands of documents produced.
    Does that congressional document unit still exist today?
    Mr. Bulatao. It is an element within the A Bureau that, 
again, has responsibility for document production----
    Mr. Keating. Okay.
    Mr. Bulatao [continuing]. To share with the relevant----
    Mr. Keating. The State Department, indeed, the State 
Department told us it had spent $8.1 million on this department 
since it was established. So, let's take a second to see what 
the American people are getting for their money.
    How many documents has the State Department produced in 
response to this committee's questions into the President's 
communications with Vladimir Putin?
    Mr. Bulatao. Congressman, I do not know what the actual 
numbers are on that. I am happy to take that question for the 
record and respond back.
    Mr. Keating [continuing]. These questions, and if you do 
not know, that is fine.
    How about our request into the intelligence surrounding 
nuclear, biological, and chemical weapons, how many documents 
were produced at our request?
    Mr. Bulatao. Congressman, again, for specific topics you 
want I am happy to take those questions for the record.
    Mr. Keating. All right. How many documents did the 
Department produce pursuant to a subpoena issued around the 
delay in arms production for Ukraine, suffering under Russian 
aggression? How many?
    Mr. Bulatao. Well, let me, let me speak more broadly, 
Congressman.
    Mr. Kinzinger. So, let me just finish this set, because I 
think I will help you out.
    What is the total number of documents at our request 
related to security threats against Ambassador Masha 
Yovanovitch? How many?
    Mr. Bulatao. Again, Mr. Congressman, our team produces 
thousands of documents----
    Mr. Keating. All right. All right.
    Mr. Bulatao [continuing]. Every year on behalf----
    Mr. Keating. If you do not know we cannot----
    Mr. Bulatao [continuing]. Of Congress in order----
    Mr. Keating. How about our request for diplomatic cables? 
Sir, this should be, this should be an easy one. I will get to 
it at the end.
    Our request for diplomatic cables regarding the COVID-19 
virus, what about those documents?
    Mr. Bulatao. Those requests----
    Mr. Keating. Same answer?
    How about our request for documents on the decision to 
withdraw from the World Health Organization?
    Mr. Bulatao. Again, Mr. Congressman, if you would allow me 
to answer, what I am going to tell you again, our team produces 
thousands and thousands of documents every year.
    Mr. Keating. Okay, Okay. Well, I will tell you again, this 
is the answer from the committee, tell me if I am wrong. How 
many pages has the Department produced about the firing of this 
Inspector General that we requested a month-and-a-half ago?
    Now, I want to tell you why I am surprised you do not know 
the answer to this question, because your team does not have to 
do much research. The answer is zero documents produced to this 
committee. Zero. That should not take a team-backed approach to 
calculate that.
    So that State has spent $8 million on a unit you oversee, 
and the purpose is to produce documents to Congress, yet you 
produced zero documents on key oversight investigations by the 
House committee with the primary jurisdiction over the State 
Department operations.
    And yet, Secretary Pompeo got to work rushing documents 
immediately, after the day the impeachment trial ended, to a 
Senate investigation, blatantly political, President Trump's 
political opponent. This was even raising bipartisan concerns 
in the Senate, a smear built on Russian disinformation, a 
scheme which Russian agents were involved in, friends with Rudi 
Giuliani, were trying to assist. And how many pages for that 
investigation?
    And I do not think you will know the answer to this so I 
will give it to you. Your team could do some work and find this 
because the answer is now up to over 16,000 pages for that. 
Zero for all our requests as a committee.
    And this committee has made it clear we are not going to 
stand for the Secretary of State, Secretary Pompeo, which is 
staffed by, overseeing a staff of dedicated, non-partisan 
professionals, to become used to select for campaign purposes.
    Chairman Engel. The gentleman's time has expired.
    Mr. Keating. Mr. Chairman, I will ask unanimous consent to 
place the rest of my statement in the record and ask Mr. 
Bulatao how the irony occurs that you failed--you fired Mr. 
Linick for not providing information, yet you are not providing 
core information and, indeed, sir, under that criteria you 
established you should be fired yourself.
    And I yield back.
    Chairman Engel. The gentleman's time has expired.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chair.
    It would have been nice if Mr. Bulatao was able to give any 
of his answers just now as we were listening to my colleagues 
working their way down the 2020 resistance bingo card of words: 
Ukraine, Yovanovitch, Russia, Putin. I think it would be nice 
if Mr. Bulatao was actually able to speak.
    This committee remains obsessed with irresponsible, 
reckless, and hyper partisan attempts to take down this 
Administration at any cost, including last year's impeachment 
debacle, which we just heard reference, and now with this 
charade desperately trying to score cheap dishonest political 
points at the expense of Secretary Pompeo.
    It is sad that this once great committee had been 
embarrassing itself with the tactics and rhetoric during this 
probe, dividing this committee, dividing Congress, and dividing 
our country.
    I have participated in almost all of the transcribed 
interviews that your colleagues have agreed to have with the 
committee from the very beginning of this investigation.
    The committee interviews, under oath, revealed that no one 
who testified spoke to Secretary Pompeo about the 
investigations of the arms sales to Saudi Arabia and Susan 
Pompeo's travel.
    Secretary Pompeo himself has said he was not aware of 
ongoing investigations in his correspondence with this 
committee. There is zero evidence, zero evidence, supporting 
the conspiracy theory that the Secretary was aware or attempted 
to influence in any way the IG's ongoing investigations.
    Mr. Bulatao's opening statement clearly lays out the poor 
job IG Linick had done in investigating the Brian Hook leak. On 
September 13th, 2019, the Daily Beast published an article 
entitled ``State IG Set to Recommend Discipline for Trump's Top 
Iran Hand.''
    This article was leaked from an ongoing IG investigation 
into political retaliation against career employees at the 
State Department. Leaks have been a major issue in this 
Administration and IG Linick, clearly, did not take it 
seriously enough.
    Mr. Linick exhibited inappropriate behavior under his own 
IG rules when he purposefully withheld the IG's report 
investigating a leak into his office from the department for 
inconsistent reasons.
    First, he said that he did not share with the department 
because no one followed up. Then he said he did not share with 
the department because he wanted to tell Deputy Secretary 
Biegun in person. And then he cited COVID-19.
    As Mr. Bulatao lays out in this opening statement, Mr. 
Linick failed to carry out the core mission of the IG. 
According the IG Linick, he had asked the former DoD inspector 
general to conduct an internal investigation after being told 
by the Council on Inspector General on Integrity and Efficiency 
and two other IG offices that they could not conduct the 
investigation.
    It seems to me that if there is an investigation into an 
IG's office, that IG should not be the one shopping around for 
someone to investigate their office.
    When the report was finalized, Mr. Bulatao, did Mr. Linick 
send you a copy of it as you requested?
    Mr. Bulatao. No, he did not.
    Mr. Zeldin. Did you ever speak to Secretary Pompeo about 
the IG's ongoing investigations?
    Mr. Bulatao. No, I did not.
    Mr. Zeldin. Bottom line, it was not possible for Secretary 
Pompeo to fire Mr. Linick because of the ongoing investigation 
since he had no knowledge of this work by the IG.
    As you lay out in your testimony, Mr. Bulatao, there are 
numerous reasons you recommended firing Mr. Linick, and again, 
it is appropriate to reiterate that the president has the 
authority to hire and fire appointed personnel.
    This whole House Foreign Affairs Committee investigation 
has been nothing more than a fishing expedition and the 
Democrats are still sitting here today with nothing at the end 
of their hook.
    I appreciate all the witnesses for being here to testify 
today. I hope after today this issue is finally closed. And no, 
as far as calling on Secretary to resign, I actually think it 
would be fantastic to sit here and say, thank you, Secretary 
Pompeo, for all of the progress.
    It was yesterday's announcement. It was killing Qasem 
Soleimani, killing Abu Bakr al-Baghdadi, eliminating ISIS 
caliphate, moving the embassy in Israel to Jerusalem, 
recognizing Israeli sovereignty over the Golan Heights, 
withdrawing from the fatally flawed Iran nuclear deal, getting 
the Taylor Force Act signed into law. That is just the Middle 
East and that is just a recap of some of it.
    I do not want to see Secretary Pompeo fired. I want to say, 
thank you, Secretary Pompeo, and to all of you I wish that you 
were not here so you could go back and just do your darn jobs 
making America greater than ever.
    I yield back.
    Chairman Engel. The gentleman yields back.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    It is pretty rich to hear my Republican colleagues talk 
about this but, I appreciate the fact that I heard Mr. 
Kinzinger say our main job is to do oversight, and that is our 
main job.
    The reason why I love the United States is our founding on 
the rule of law spelled out in the Constitution, which talks 
about the checks and balances.
    I am not a lawyer but I would like to ask Mr. String a 
couple questions since he is a lawyer and it is accurate, I 
believe, for me to portray Mr. String as the lead legal counsel 
and the acting legal counsel for the L Bureau.
    So I know the rules that we are held in Congress under that 
suggest we have to keep all our documents, emails, et cetera, 
that pertain to policy decisions that we make and how we arrive 
at those decisions.
    There is communication that happens on Gmail we have got to 
make sure those are--those are also catalogued, especially 
around policy decisions and how we make those decisions.
    And I know my Republican colleagues certainly know that 
even after a Secretary of State leaves office, it is still our 
responsibility to conduct oversight because that is what they 
did with former Secretary of State Clinton. They even set up a 
special committee to do investigation of correspondence, et 
cetera, because they understood that.
    So, Mr. String, as lead legal counsel, and this is really 
for all the State Department employees, you know, whether it is 
5 months from now or 5 years from now, there will be an 
administration that will want to look back and identify 
documents, correspondence, et cetera, that led to policy 
decisions.
    Mr. String, is it your recommendation that every State 
Department employee, absent the Secretary of State, keep those 
documents? They do not destroy any of those documents; they 
keep correspondence and emails, and that would be the letter of 
the law?
    [No response.]
    Mr. Bera. Mr. String?
    Mr. String. Thank you, Congressman.
    Yes. As you know, document preservation is something we 
take very seriously under the Federal Records Act, and so we 
take significant steps to ensure compliance with that.
    Mr. Bera. So if there's a transition to a new 
administration 5 months from now, any employee that were 
destroying legal records, documentation, corresponding--
correspondence as it pertains to policy decisions and 
deliberations. Again, whether that is on the Gmail server or 
elsewhere, that would be illegal.
    Is that correct, Mr. String?
    Mr. String. Thank you for the question, Congressman.
    So destruction of documents would not be something that 
would be consistent with the Federal Records Act.
    Mr. Bera. I guess let me clarify. Would it be illegal to 
destroy documents?
    Mr. String. To destroy Federal records that were required 
to be preserved under the Federal Records Act? That would be 
inconsistent with the law.
    Mr. Bera. Okay. So, again, just the message to any State 
Department Employees, you know, oversight does not stop when an 
administration leaves. We will continue to conduct oversight.
    We will continue to look into how decisions were arrived to 
better understand those decisions. You know, hopefully, there 
is nothing there.
    But the fact that we have not been able to get the 
administration to work with us to talk about, you know, the 
rationale behind going around Congress for the Saudi arms 
sales, who approved and wrote those decisions, who cleared 
those decisions, that is something, legitimately, if we have an 
administration that is willing to cooperate with us, we can go 
back and look at.
    And, again, for every State Department employee, you know, 
we just heard from lead legal counsel that says any destruction 
of documents, any destruction of correspondence, even if it's 
on your personal Gmail server or Gmail account, would be 
considered illegal and, you know, we certainly will be looking 
into that. That is of concern.
    I am out of time. So, again, I will yield back to the 
chairman.
    Chairman Engel. The gentleman yields back.
    Ms. Titus.
    [No response.]
    Chairman Engel. Ms. Titus.
    Ms. Titus. I just lost you for a second. Thank you.
    Chairman Engel. I did not want to lose you.
    Ms. Titus. Yes. Thank you very much. I appreciate that.
    I have listened with interest to all the discussion about 
the inspector general. I just want to return to the Madison 
dinners for a little while. They are making the news again.
    I think many of you probably saw this article that was in 
the paper. These are dinners, so-called Madison dinners, in the 
Madison Room that are hosted by the Secretary and his wife. 
They are restarting this week and they are using taxpayer 
money.
    So I would like to present some statistics that have been 
reported in press accounts. Twenty-nine percent of the invitees 
came from the corporate world.
    Another 25 percent came from the media, which was mostly 
conservative media. Just 14 percent were diplomats or foreign 
officials and those names seemed to be interchangeable.
    Finally, every single member of the House or Senate who has 
been invited is a Republican. Roughly, two dozen of these 
dinners have been held since April 2018 when Mr. Pompeo took 
office as Secretary of State and at least three more are 
planned to be held not at the Madison Room but at the Blair 
House.
    Does that sound accurate to you, I would ask your 
witnesses?
    Mr. Bulatao. Congresswoman, I do not have access nor do I--
am involved in any of the invitations or the execution of the 
Madison dinners.
    Ms. Titus. And I believe that may be the point. But we do 
not have any indication that Democratic members have ever 
attended these or--we've been hearing about how foreign policy 
is not supposed to be political. Politics--partisan politics 
stop at the country's border, at the water's edge. How many 
times we have heard that.
    We have heard our Republicans criticize us this morning for 
making this political, and yet no Democratic members have 
attended these or been invited as far as we know. Is that 
correct?
    Mr. Bulatao. Let me--let me make this comment on it. I 
think American foreign policy is uniquely a reflection of the 
broad spectrum of American society.
    Secretary Pompeo recognizes the strongest foreign policy--
--
    Ms. Titus. I appreciate that. I appreciate that. A yes or 
no--yes or no. I am sorry. Yes or no, any Democrats have been 
at this--these dinners that are supposed to be about foreign 
policy?
    Mr. Bulatao. Again, Congresswoman----
    Ms. Titus. I think the answer is no.
    Mr. Bulatao. Congresswoman, I do not have that answer----
    Ms. Titus. All right. I guess you----
    Mr. Bulatao [continuing]. Because I am not involved in the 
Madison dinners.
    Ms. Titus. Okay. Well, is anybody there at the table 
involved in these dinners?
    [No response.]
    Ms. Titus. Apparently no, so----
    Mr. Cooper. No, ma'am.
    Ms. Titus. Okay. Well, we had Toni Porter before this 
committee and she was involved in the dinners. She was the 
former person who planned fundraisers for Mr. Pompeo's 
campaigns and now she plans these Madison dinners.
    Her recollection is that aside from Mr. Pompeo himself 
there were no State Department diplomats or foreign experts at 
any of these dinners. She said usually it was just herself and 
a protocol officer. They set up the dinner but they did not go 
behind the closed doors.
    However, it did take a lot of foreign--State Department 
staff because you had caterers, security officers, facilities 
management to set these up.
    So it took a lot of time and effort, and many of the--talk 
about morale, many of the people at the State Department did 
not think this was an appropriate use of their time.
    Who did attend these dinners, however, was Mrs. Pompeo, and 
I believe you know the answer to this even though you were not 
involved, she is not a State Department employee. Is that 
correct?
    Mr. Bulatao. Mrs. Pompeo is not a State Department 
employee. But as the spouse of the Secretary, she is involved 
in many official functions and representational events.
    Ms. Titus. Okay. And yet, she had all the information from 
the dinners and the people who attended the dinners sent to her 
personal email. Is that correct?
    Mr. Bulatao. I could not hear your question, Congresswoman. 
Could you please repeat?
    Ms. Titus. All right. I said and even though she is not a 
member of the State Department, not an employee of the State 
Department, she had all of the information from the people who 
attended these dinners sent to her personal email. Was that--
maybe that was for a Christmas card list or something. I do not 
know. Is that correct?
    Mr. Bulatao. Congresswoman, it would not be--as the host, 
as part of the host team for a representational event, for Mrs. 
Pompeo attending that event with the Secretary to know who was 
going to be at any event.
    So all events like that in terms of representational, 
whether they are domestic or overseas, it would be appropriate 
to send the list of attendees.
    Ms. Titus. Even though she is not an employee and we do not 
know what information was included that was sent to her besides 
addresses and names to put in her personal Rolodex, perhaps to 
use for a future political campaign for Mr. Pompeo.
    But do not you think it is a little odd that we also heard 
that no information was prepared for Mr. Pompeo for these 
dinners?
    No briefings, no facts, no figures, nothing to use to 
explain the State Department's work or what they were doing in 
a particular country, which was allegedly the function of these 
dinners? Nobody did any of that? They did not really care about 
talking about any of that?
    Mr. Bulatao. Congresswoman----
    Ms. Titus. Do you think that is appropriate? Don't you 
think that is a little odd?
    Mr. Bulatao. The Secretary is well-versed on a multitude of 
foreign policy issues. That is his job as our lead diplomat.
    I believe these events are a valuable opportunity to 
educate disparate elements of our society about current foreign 
policies and to introduce foreign diplomats to Americans. I 
think they serve a useful function.
    Chairman Engel. The gentlewoman's time has expired.
    Ms. Titus. Especially for movie stars and press and all 
that. But let us also remember, and I will yield back in just a 
second, Mr. Chairman. These are--these dinners are paid for by 
taxpayers. They pay for these dinners.
    And yet, I wonder what taxpayers' benefit is from these 
dinners hosted for Mr. Pompeo and Mrs. Pompeo to make political 
contacts for their future. When they were looked into, shortly 
thereafter that is when the firing of this inspector general 
occurred.
    And I yield back. Thank you.
    Chairman Engel. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    The chairman, in his opening statement, laid out a pattern 
of corruption, nepotism, and mismanagement occurring at the 
Trump State Department, and as I was listening it seemed more 
like examples from dictatorships around the world that our 
country has a history of condemning.
    And in the face of staggering evidence of misconduct and 
lawlessness, it is important we take a moment to applaud the 
men and women at the State Department who continue to serve as 
this Administration erodes our standing in the world, works 
around enacted legislation to sell arms to Saudi Arabia, or 
fires those brave enough to investigate their wrongdoing.
    So, Secretary Bulatao, I want to begin with you. I want to 
ask you some statement--about some statements Secretary Pompeo 
made. When the Secretary was asked about whether he knew the 
fired inspector general was investigating him, he claimed that 
he had no knowledge of this.
    Here is what he told the Washington Post: ``It is not 
possible. My recommendation to the president was based on any 
effort to retaliate for any investigation that was going on or 
is currently going on because I simply do not know.
    I am not briefed on it so it is simply not possible for 
this to be an act of retaliation. End of story.'' That was the 
end of his quote.
    That was not true, was it? Because there were two 
investigations the IG was doing of the Secretary. One involved 
his role in bypassing a congressional prohibition on arms sales 
to Saudi Arabia, and as the New York Times revealed, Secretary 
Pompeo knew that the inspector general was investigating this 
issue because the inspector general had asked to interview him 
and Secretary Pompeo refused and instead chose to answer 
written questions.
    So it is indisputable that Secretary Pompeo knew about this 
investigation.
    The other investigation was examining whether Secretary 
Pompeo and his wife abused his office by asking State 
Department employees to run personal errands for them.
    Mr. Linick, the inspector general, told the committee that 
he spoke to you and Deputy Secretary Biegun in late 2019 about 
the fact that his staff would be requesting documents from the 
office of the Secretary related to the alleged misuse of 
government resources by Secretary Pompeo and his wife.
    And he said he told you this so that you and the Secretary 
would not be surprised and would understand why they were 
requesting those documents. Mr. Linick testified under oath, 
under the penalty of false statement, rather, when he told the 
committee this.
    So my first question, Mr. Bulatao, was Mr. Linick lying 
when he told the committee that he spoke with you about this 
investigation in 2019 months before he was fired?
    That is a yes or a no.
    Mr. Bulatao. No. Let me make----
    Mr. Cicilline. Okay. So he was not lying?
    Mr. Bulatao. No. No. Let me clarify to the question there.
    Mr. Linick never talked to me about that in 2019. No, he 
did not talk to me about that.
    Mr. Cicilline. Okay. So, Mr. Bulatao, I find this very hard 
to believe. Secretary Pompeo is one of your oldest and closest 
friends. You have known him since your days at West Point. You 
were business partners.
    And you are asking this committee to accept that you 
cannot--that you did not, in fact, have a conversation with the 
inspector general where you were told that he was conducting an 
investigation of a person close--one of your closest friends 
for abusing his office. I find that very hard to believe.
    Now, Mr. Linick also requested----
    [Simultaneous speaking]
    Mr. Bulatao [continuing]. To the Congress.
    Mr. Cicilline. You said he did not speak to you. I do not 
believe you. Mr. Linick then requested documents for his 
investigation of Secretary Pompeo's misuse of staff.
    You were aware of these document requests, correct?
    Mr. Bulatao. No.
    Mr. Cicilline. You were not--you were not aware that 
document requests were made of the Secretary?
    Mr. Bulatao. No. What I--what I was aware of was that the 
inspector general was conducting a preliminary inquiry on 
travel----
    Mr. Cicilline. Okay. So change the word. Preliminary 
inquiry, which is another word for investigation, of the 
Secretary, correct?
    Mr. Bulatao. No. The topic that I was informed of, and I 
received an email from the IG's office, was they were 
conducting a preliminary inquiry on official travel.
    Mr. Cicilline. And did you tell Mr. Pompeo that he and his 
wife were under investigation for allegedly misusing State 
Department staff?
    Mr. Bulatao. No, sir.
    Mr. Cicilline. Again, I find that difficult to believe, 
sir.
    Again, Mr. Pompeo is one of your closest friends.
    Mr. Bulatao, did you--Secretary Pompeo has said that he 
recommended to President Trump that Mr. Linick be removed from 
office. This was a big step for the Secretary to take. I 
presume he discussed it with you.
    Mr. Bulatao. The Secretary mentioned that he was going to 
make a recommendation to the president sometime in early April.
    Mr. Cicilline. And I presume, Mr. Bulatao, that when he 
made that--when you had that conversation with Secretary Pompeo 
you must have thought to yourself, oh my goodness, this will 
look bad. If you fire an inspector general who is investigating 
you and your wife for misconduct it will look bad. And you must 
have given him some advice or at least told him about that.
    Mr. Bulatao. Again, Congressman, you keep alluding to that 
I knew about some kind of investigation about----
    Mr. Cicilline. But you just said you knew about a 
preliminary inquiry.
    Mr. Bulatao. About travel. That's what I told you. About 
travel.
    Mr. Cicilline. An investigation----
    Mr. Bulatao. And I welcome an investigation about travel. 
It is good. We got to make sure we get travel right. So that 
was not an issue.
    There was no issue about the IG investigating travel. None 
whatsoever, although I was surprised when the Secretary 
mentioned that he was going to do that because I was surprised 
it took him that long.
    Mr. Cicilline. Well, Mr. Bulatao, what you are saying----
    [Simultaneous speaking]
    Mr. Bulatao [continuing]. Performance.
    Mr. Cicilline [continuing]. To be frank with you, just does 
not add up. We know that Mr. Pompeo was not telling the truth 
when he denied knowing about the IG's arms sales investigation.
    I think he is also misleading the public when he denies 
knowing about the investigation of his misuse of State 
Department employees----
    Mr. Bulatao. I think it's outrageous that you are calling 
the Secretary of State a liar.
    Mr. Cicilline [continuing]. Just as he tried to obfuscate 
the reasons around Mr. Linick's firing and stymie everyone 
except his best friend from coming forward, coming to Congress 
to tell us what happened.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. The gentleman yields back.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman, and thank you, gentlemen, 
for being here, for your testimony today.
    Since the beginning of his presidency's term, many of us 
have been very concerned about President Trump's undermining of 
the rule of law, including his use of the State Department and 
the Secretary of State to do it, and also his disregard for the 
oversight function of the legislative branch and that is why I 
believe you see a lot of the questions that you have been 
fielded today.
    And you all made the point that one of your chief 
complaints with Inspector General Linick was that he was not 
providing you the information that you needed to do your jobs.
    I am saying that you all so far are not providing us the 
information that we need to do our jobs and in so doing are 
probably permanently changing the balance of power between the 
executive branch and the legislative branch by burying 
everything in either disregard or forcing everything to go to 
court.
    So I sent a letter to the department on August 25th raising 
a number of questions regarding the use of department resources 
to facilitate the Secretary's speech to the RNC including on 
issues that are directly under your purview, Mr. Bulatao, such 
as the use of staff time--such as the use of staff on official 
time for that purpose, and I have yet to get answers from the 
department.
    I want to ask you today whether you will commit to this 
committee that you will provide answers to those questions and 
provide a full accounting of the expenses incurred during the 
Secretary's travel to Israel.
    Now, before you answer, I want to say this. If you have 
nothing to hide, why do not you call provide us the information 
that we are looking for?
    If it is clear that nothing was done wrong, why not send 
over the documents that we have requested? Again, this is 
consistent with a string of what I would consider an abuse of 
ignoring the legislative branch, and the temptation then is the 
next time you get either a Republican or a Democratic president 
that the executive branch is going to make--is going to issue 
the same abuses.
    And also before you answer the question, please know that I 
am requesting two things: No. 1, that whatever documents 
pertaining to that inquiry exist that they be protected and not 
destroyed at any time, and second, if we do not wrap this 
investigation up, because I am chair of the Subcommittee on 
Oversight and Investigations for this committee, I am going to 
ask this committee to make sure that those investigations 
continue past November and past January.
    With that, please.
    Mr. Bulatao. Congressman Castro, again, we take very 
serious the role of oversight for this committee. I will work 
with our legislative affairs team to understand where the 
status of that document request is.
    I will also note that the Secretary of State himself made 
known that his remarks were in no way used any resources from 
the department. It was in his personal capacity and no 
resources from the department were used in him making those 
remarks.
    But I will followup and understand where that document 
request is and we will continue to work to comply with our 
oversight requirement.
    Mr. Castro. And I understand that he--that he issued that 
statement and I respect that statement. But as you know, this 
is not just about one person's word. We are entitled to engage 
in an oversight function and we have not been provided the 
documents and the resources that we need to do our jobs.
    So I am asking you, please give us what we need.
    All right. You know, I want to ask Mr. String, because it 
remains stunning to me that Mr. Pompeo recorded a speech for 
the RNC while he was on official travel in Jerusalem. In fact, 
it shattered decades-long norms that have kept our diplomats in 
the State Department out of politics.
    In fact, this raised such serious concerns that, as 
chairman of the Oversight Committee, I raised a number of 
questions to the department about this abuse.
    But we have also learned in October and November 2019 
President Trump asked the Secretary to speak at one of his 
campaign rallies. Apparently, the Secretary wanted to but, 
ultimately, backed down in light of the existing guidance.
    Is this correct?
    Mr. String. Congressman, thank you--thank you for the 
question and I will echo what the under secretary said about 
our commitment to responding to the committee's request.
    So as I recall, there was a period in 2019 when that issue 
that you raised came up and it was reviewed.
    Mr. Castro. So the issue did arise? That request was made 
by the president to the Secretary of State?
    Mr. String. I do not know the details of it, Congressman. 
My recollection is that it was an issue.
    Mr. Castro. Okay. With that, I am out of time. I yield 
back.
    Thank you, gentlemen, for your testimony.
    Chairman Engel. Thank you.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I have criticized both the Obama and Trump Administrations 
for supporting a Saudi-led military coalition that has 
committed multiple war crimes in Yemen. This is not a partisan 
issue. It is a moral issue and a criminality issue.
    I previously served active duty in the military as a JAG, 
and one of my responsibilities was to advice commanders on the 
law of armed conflict. It is clear to me that officials in the 
State Department and the Department of Defense have potential 
legal liability for aiding and abetting war crimes.
    That is one reason that on December 16 the Obama 
Administration halted a shipment of precision guided munitions 
to Saudi Arabia, because they realized the Saudis were using 
these very precise weapons to precisely target and kill 
civilians at funerals, wedding parties, civilian marketplaces, 
hospitals, and recently a school bus filled with children.
    Unfortunately, the Trump Administration reversed this sale 
and these are the kinds of weapons being used in war crimes 
that Mr. Cooper and Mr. String worked so hard to let Secretary 
Pompeo and Donald Trump bypass congressional oversight.
    And now we learned this past Monday the New York Times has 
confirmed what some of us were told, that in 2016 State 
Department lawyers wrote a memo that concluded, quote, 
``American officials could plausibly be charged with war 
crimes,'' unquote.
    So, Mr. String, I have been asking for a copy of this memo 
for years. Let me ask you, have you read that 2016 memo?
    [No response.]
    Mr. Lieu. Would you like me to repeat my question, Mr. 
String?
    Mr. String. No, Congressman. Thank you for the question.
    To the best of my recollection, the first time I read about 
a 2016 memo was in the press a few days ago.
    Mr. Lieu. So you were not aware that the inspector general 
got a copy of this 2016 memo as the Daily Beast had reported?
    Mr. String. Congressman, in 2016 it was, obviously, under 
the previous administration. So I was not in the State 
Department at that point. To the best of my recollection, 
again, I do not recall hearing about a 2016 memo until I read 
it in the press.
    Mr. Lieu. Okay.
    Mr. Bulatao, were you aware of this 2016 memo?
    Mr. Bulatao. Again, I was confirmed as the under secretary 
May <bullet>19 and I am not aware of this 2016 memo.
    Mr. Lieu. Okay.
    And Mr. Cooper, the New York Times reported that some of 
the folks in the political and military bureau had already seen 
this memo. Have you seen this memo?
    Mr. Cooper. No, Mr. Lieu. But I want to go back to the 
beginning of the hearing today where I cited the Trump 
Administration reaffirming a previous executive order to 
actually commit to enabling and training to prevent civilian 
casualties and also citing, going back to spring of 2018, for 
the updated conventional arms transfer policy which 
specifically addresses the need to mitigate and reduce the risk 
of civilian casualties.
    So as far as addressing the issue, yes, I am very familiar 
with it, which is why we have developed the advanced targeting 
initiative per the direction of President Trump and his 
conventional arms transfer policy.
    So the issue is not new. As you noted, it is one that has 
vexed several administrations and the work continues.
    Mr. Lieu. Thank you. First, I thank you for those efforts. 
I note that since the spring of 2018 it actually have not 
worked because that school bus filled with children was very 
precisely struck by precision-guided munition.
    Now, I have a question related to what the OIG also said. 
The OIG found that the State Department failed to fully assess 
risks and implement mitigation measures to reduce civilian 
casualties and legal concerns associated with the transfer of 
precision-guided munitions included in the Secretary's May 2019 
emergency certification.
    Do you agree with the OIG's findings? And if you do not, 
why not?
    Mr. Cooper. What I said we agreed to is that more could be 
done. There certainly had been assessment to that point. In 
fact, we remind the committee that before the emergency 
certification process and decision point the work on all these 
cases, the interagency assessment on the applicability, the 
requirements that were needed for our partners in Saudi Arabia, 
in the United Emirates, and in Jordan had been addressed and 
had been notified to Congress.
    Mr. Lieu. Thank you. I would additionally request----
    Mr. Cooper. What I added is that the work--there is 
additional work that needs to be done, Mr. Lieu.
    Mr. Lieu [continuing]. Please read the memo. All three 
witnesses, please read that 2016 memo, and the second request 
is please give Congress a copy of that memo.
    Thank you, and I yield back.
    Chairman Engel. The gentleman yields back.
    Mr. Phillips.
    Mr. Phillips. Thank you, Mr. Chairman, and to our 
witnesses, thank you for being with us today.
    I would like to speak about Secretary Pompeo's senior 
advisor, Toni Porter, who voluntarily sat for a transcribed 
interview before this committee and answered our questions 
about the Secretary's misuse of official resources, a topic 
about which she also spoke to the IG about.
    Mr. Bulatao, how long have you known Ms. Porter and what 
are her official duties?
    Mr. Bulatao. I have known Ms. Porter for probably, roughly, 
5 years.
    Mr. Phillips. Okay. And her official duties?
    Mr. Bulatao. She serves as a special advisor to the 
Secretary. In that role, her role is to help maximize the 
productivity and the impact of the Secretary as our lead 
foreign policy expert on behalf of the American people.
    Mr. Phillips. Okay. So she works for the State Department, 
not the Pompeos personally? Is that a fair statement?
    Mr. Bulatao. She is an employee of the State Department.
    Mr. Phillips. Okay. And taxpayers pay her salary, over 
$140,000----
    Mr. Bulatao. Yes.
    Mr. Phillips [continuing]. A year? That is correct?
    Okay. I am sure you know, Mr. Bulatao, that as a public 
employee, government employee, that she has a legal 
obligation--Ms. Porter, that is--to, quote, ``use her official 
time in an honest effort to perform official duties,'' end 
quote, which to all of us means when the government is paying 
you, you have to be working for the government.
    So my question is Mrs. Pompeo, the Secretary's wife, is not 
a government employee. So running errands for her could not be 
considered an official duty. Is that a fair statement?
    Mr. Bulatao. Mrs. Pompeo is not a government employee. That 
is a fair statement.
    Mr. Phillips. So running an errand for her would not be 
considered an official duty?
    Mr. Bulatao. Who was running the errand? I am not clear.
    Mr. Phillips. In this case, we are speaking about Ms. 
Porter.
    Mr. Bulatao. Yes. What----
    Mr. Phillips. Any public--let me ask, any public employee 
running an errand for an executive branch official.
    Mr. Bulatao. Well, again, what public employees choose to 
do on their own time, if it is not violating their work matters 
or any of the guidelines that we placed out would be up to 
them.
    Mr. Phillips. But running official--running errands for 
officials is not considered an official duty.
    Mr. String, let me ask you, it would not be considered 
legal to--for the Secretary or anyone at the State Department 
to direct Ms. Porter to do work for Mrs. Pompeo. Is that 
correct?
    Would it be legal for the Secretary or anyone else at the 
State Department to direct Ms. Porter to do work for Susan 
Pompeo?
    Mr. String. You are asking a hypothetical question?
    Mr. Phillips. No, just a yes or no question.
    Mr. String. I have not reviewed the--well, I have not 
reviewed the transcript and I think it would depend on a lot of 
factors.
    Mr. Phillips. I am not asking about the transcript. Is it--
is it legal for the Secretary or anyone at the State Department 
to direct Ms. Porter to do work for Susan Pompeo? Plain and 
simple, yes or no. This is not a hard question.
    Mr. String. Again, Congressman----
    Mr. Phillips. It might be hard question for you.
    Mr. String [continuing]. The transcript was just released. 
I have not----
    Mr. Phillips. We all know the answer.
    Mr. String [continuing]. I have not reviewed the 
transcript.
    Mr. Phillips. I am not asking about the transcript, Mr. 
String. You know what I am asking. It is a yes or no question 
you are unwilling to answer. We all know the answer.
    You know that the law provides that, quote, ``an employee 
shall not encourage, direct, coerce, or request a subordinate 
to use official time to perform activities other than those 
required in the performance of official duties or authorized in 
accordance with law or regulation.'' That is how the law reads.
    Ms. Porter testified she arranges private dinners for the 
Pompeos and their family.
    So, Mr. String, another question. If that is true, is that 
an appropriate use of Ms. Porter's time when she is on the 
clock? Arranging private dinners.
    Mr. String. Congressman, again, you are referring to, I 
believe, items in a transcript that I have not had the chance 
to review.
    Mr. Phillips. I am just--I am asking a yes--Mr. String, I 
am making it so easy. A yes or no question. Is that legal? In 
that hypothetical, is that legal?
    Mr. String. Congressman, I appreciate your question and I 
know----
    Mr. Phillips. You will not answer the question.
    Mr. String [continuing]. I understand what you are asking. 
But this is a--you are asking for a legal conclusion about a 
transcript----
    Mr. Phillips. I am asking for a simple answer.
    Mr. String [continuing]. That I have not reviewed.
    Mr. Phillips. Every one of us in this entire city knows the 
answer to the question, apparently other than you. It has been 
reported that in exchange for her six-figure government salary 
that Ms. Porter walks Mrs. Pompeo's dog and drives the dog to 
doggy daycare.
    One more question, Mr. Stringer. Are these appropriate 
activities for a State Department official to be doing on the 
clock of the taxpayer? One more opportunity.
    Mr. String. Again, Congressman, I have not reviewed the 
transcript. I do not know the specifics. But what a State 
Department employee chooses to do on his or her personal time--
--
    Mr. Phillips. You have said this--with all due respect, 
sir, you have said the same thing five times in a row.
    Lisa Kenna, the executive secretary who assists Mr. Pompeo 
in his actual job, claimed in her interview with the committee 
that she and the diplomats who work for her only assist Mrs. 
Pompeo when she is formally invited to official events or 
travel for protocol purposes.
    But just this weekend the media reported the Mrs. Pompeo 
was demanding that Ms. Porter spend her official time at work 
sending out the Pompeo's personal Christmas cards.
    So the beat goes on. You know, I--gentlemen, it is hard for 
all of us to go back to our districts at a time like this with 
COVID, people struggling so mightily having to make ends meet 
and explain to them why our Secretary of State cannot do what 
everybody else does, which is either find the time to do it 
themselves but, certainly, not on the taxpayers' dime.
    I yield back.
    Chairman Engel. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman.
    In 2016, the Saudi targeted a funeral in Sanaa, Yemen, 
killing a hundred civilians. The Saudi government admitted to 
this in a press statement, said that they did this without 
taking any precautionary measures to ensure the location was 
not a civilian one.
    Mr. String, were you--are you aware of this?
    Mr. String. Congresswoman, what timeframe was that?
    Ms. Omar. 2016.
    Mr. String. I was not in the government at that period of 
time.
    Ms. Omar. That was not the question, sir. I asked if you 
are aware of it.
    Mr. String. I have--Congresswoman, I have a vague 
recollection of that, although I was not in government. I was 
in private legal practice at the time. But I----
    Ms. Omar. Thank you.
    How about Mr. Cooper?
    Mr. Cooper. Thank you, Congresswoman.
    I can say in my previous capacity in the National Security 
Enterprise before going over to the Department of State----
    Ms. Omar. It is just a yes or no question. I do not have 
too much time.
    Mr. Cooper [continuing]. I was acutely aware of Houthi 
actions in Yemen dating back years.
    Ms. Omar. Were you aware--were you aware of this, yes or 
no?
    Mr. Cooper. I was aware of the Houthi threat and the--and 
the cause of the ongoing civil war that did bring the death and 
displacement of Houthis.
    Ms. Omar. Were you aware of--were you aware of the actions 
of Saudi Arabia in killing a hundred civilians and not taking 
precautionary actions and admitting to it? That is the 
question, yes or no.
    Mr. Cooper. So the--the answer to your question is we could 
do better on mitigating civilian casualties, full stop. No one 
is arguing that.
    Ms. Omar. So I would take that as a yes. The Obama----
    Mr. Cooper. But to a specificity about a particular entity 
in 1916 I cannot--I cannot answer that.
    Ms. Omar. I reclaim my time. The Obama Administration 
suspended sales of certain weapons including precisionary-
guided missiles because they were afraid that this hardware 
will be used to kill civilians.
    In 2017, the Trump Administration decided to resume the 
arms sales. It sought unique written assurance from Saudis that 
they would comply with the law of war.
    Mr. String, are you familiar with this?
    Mr. String. Congresswoman----
    Ms. Omar. Again, yes or no.
    Mr. String. Congresswoman, I believe this veers into 
potentially classified material. So I am not comfortable 
talking further about that item.
    Ms. Omar. Okay. So we can assume that the Trump 
Administration was also concerned that Saudi Arabia might use 
weapons we sell to them to target civilians. Would you consider 
targeting civilians as a crime of war, Mr. String?
    Mr. String. Congresswoman, the specific targeting and 
intentional targeting of civilians would be--would be very 
concerning.
    Ms. Omar. Concerning or a crime of war? I am confused.
    Mr. String. If there was specific intent to target 
noncombatants, that would be inconsistent with a variety of 
laws.
    Ms. Omar. So it seems odd that we should seek those kind of 
assurances and making sure that they were not targeting 
civilians but we are still selling weapons to them, that they 
are confessing to have used to commit such crimes.
    Mr. String, can you give me another specific example where 
we sought such assurances?
    Mr. String. As a--as a general matter, Congresswoman, we 
seek assurances from partners for a variety of reasons around 
the world and I can say that we are aware of the issues that 
you raise.
    We take the issues very seriously. It is not just at the 
State Department. It is an interagency issue, and I can assure 
you that the U.S. Government is focused on continuously and 
comprehensively addressing these issues through a variety of 
the training measures that Assistant Secretary Cooper mentioned 
earlier, including training and other forms of assistance.
    Ms. Omar. All right. So with all of that, in June--on June 
11th, 2018, the Saudi coalition targeted and destroyed Doctors 
Without Borders treatment facility in Yemen, and on August 9th, 
2018, using weapons from the United States that we sold to 
them, the Saudis targeted a school bus in northern Yemen, 
killing dozens of children.
    In 2018--June 2018--Senator Menendez had put a hold on 
future arms sales to Saudi Arabia because of these concerns of 
targeting civilian casualties. Chairman Engel did the same 
thing.
    Are you aware of this, Mr. String, and do you think these 
were legitimate concerns?
    Mr. String. Just so I understand, Congresswoman, are you 
asking whether I was aware of the concerns expressed by some 
Members of Congress?
    Ms. Omar. Yes, and the fact that the Saudis targeted and 
destroyed the Doctors Without Borders and targeted the school 
bus.
    Mr. String. Congresswoman, yes, my recollection I was aware 
of concerns at that time.
    Chairman Engel. The gentlewoman's time has expired.
    Mr. Bulatao. Mr. Chairman?
    Mr. Chairman, would it be possible to take a 5-minute 
health break? We have been at this for about 3 hours. A quick 
5-minute restroom break.
    Chairman Engel. Certainly. Five minutes. I think we have 
votes coming so that is why we want to speed it. Want to try to 
get through the whole thing before the vote. But 5 minutes 
recessing.
    [Recess.]
    Chairman Engel. Okay. We will continue.
    Mr. Connolly.
    Mr. Connolly. Thank you very much, Mr. Chairman, and thank 
you to our panelists for being here.
    I have a long convoluted markup. That is why I have been 
coming back and forth.
    I chair the Government Operations Subcommittee, which has 
jurisdiction over inspectors general.
    So, Mr. Bulatao, could you describe for us your 
understanding of the roles and functions of an IG--of an 
inspector general?
    Mr. Bulatao. The inspector general reports to the head of 
the agency. It is under the direct supervision, according to 
the IG Act. They have the responsibility to identify areas of 
waste, fraud, and abuse.
    They have the mission to conduct independent audits, to 
conduct inspections and to conduct investigations, and they 
have a strong commitment to be independent of any inappropriate 
influence.
    Whether that influence is coming from within their agency 
or from Congress or from any other place, there is a commitment 
to be independent from inappropriate influence.
    Mr. Connolly. Would you--would you believe--do you believe 
that an IG is subject to a supervisor's review and approval of 
the subject matter that IG may be pursuing by way of 
investigation?
    Mr. Bulatao. Again, the IGs have wide latitude to 
investigate lots of areas, and that is my point. They are 
independent from any kind of inappropriate influence.
    Mr. Connolly. So you, according to Mr. Linick, had 
conversations with him, in fact, about the subject matter he 
was proposing to or actively investigating. Is that correct?
    Mr. Bulatao. Are you referring to a specific subject 
matter?
    Mr. Connolly. Well, I guess I am starting with the general 
and I will get to the particular. But I am following up on your 
description and their broad independence, and we are now in the 
territory of what is proper and what is not proper about a 
supervisor choosing to intervene by way of discussion on the 
subject matter of a pending investigation by an IG.
    And I asked you--we have testimony from Mr. Linick that you 
did have conversations with him about such subject matter and I 
am asking you to confirm that that is true, that you had 
conversations with him about ongoing investigative matters.
    Mr. Bulatao. Mr. Congressman, many times the IG would ask 
are there areas that we should look at. So, of course, they 
asked for my input----
    Mr. Connolly. Did you----
    Mr. Bulatao [continuing]. On areas that he thought would be 
helpful so we could help prioritize what his priorities were in 
areas that we thought needed attention.
    Mr. Connolly. Quite right. So he approached you to 
solicit----
    Mr. Bulatao. And--yes, and I----
    Mr. Connolly. But the question here is did you go to him? 
Because he described some of those conversations that you 
initiated with him as, from his perspective, bullying.
    Mr. Bulatao. That is a mischaracterization. I can recall 
the conversation that I had with IG Linick on that topic. The 
exact conversation went along the lines of me asking Mr. Linick 
if there are any areas that I could help him on.
    Mr. Connolly. Help him?
    Mr. Bulatao. Yes. Assist him. I normally do that in our 
biweekly----
    Mr. Connolly. Was one of those areas the issue of arms 
sales to Middle East?
    Mr. Bulatao. Yes, in that conversation Mr. Linick described 
to me--he said we are complete with the arms sale report. This 
would have been in early 2020 timeframe. It may have been at 
the very end of the year.
    He said, we are complete. We are done. We just need to 
finish it by interviewing the Secretary, and I said, great, let 
me try and figure out when we could do that, how fast we can do 
that.
    Help me understand how much time do you need, because the 
Secretary is getting ready to go out of town. He is going to be 
traveling for multiple weeks straight.
    Mr. Connolly. So----
    Mr. Bulatao. So my endeavor was to help the IG complete 
whatever he needed on the arms sale. That was the first time I 
was made aware that there was any such inspection ongoing was 
in January or the end of 2019 or early 2020.
    Mr. Connolly. So just to be clear on the record because my 
time is running out, under oath it is your testimony that you 
never bullied Mr. Linick or sought to bully him with respect to 
any ongoing investigation. Is that correct?
    Mr. Bulatao. That is correct. If asking questions is 
bullying, then--there was no bullying going on.
    Mr. Connolly. So stipulated. And that you did not seek to 
derail or suppress or influence in any undue way an 
investigation with respect to arms sales in the Middle East 
that Mr. Linick was conducting or had completed.
    In fact, it is your testimony not only did you not do that, 
you sought to facilitate his access to the Secretary of State 
in order to put the final touches on that report. Is that 
correct?
    Mr. Bulatao. It is correct, and even in--even in the IG's 
testimony he says no, the under secretary did not try and stop 
me from this work. He said it several times. He said it on his 
testimony on page 206 and he said it on page 208.
    Mr. Connolly. My time is up.
    Chairman Engel. The gentleman's time has expired.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman. I would like to direct 
my questions to Mr. Bulatao, and my predicate for my questions 
is primarily going to be the affidavit about Ambassador Stephen 
Akard, which--I am not going to go through the contents of that 
in detail. I think we have all seen it and know what is in 
there.
    But it is worth noting that Mr. Akard's appointment was 
first announced right after Mr. Linick was fired. But he 
resigned only a few months later.
    I mean, Mr. Akard resigned only a few months later in 
August after being forced to recuse himself from involvement in 
the arms sales matter and the investigation into the Pompeo's 
misuse of resources.
    So my first question to you is who suggested the Ambassador 
Akard should be the one to replace Mr. Linick?
    Mr. Bulatao. Congresswoman, we were--many candidates we 
wanted to understand who would be best qualified to serve in 
that role so we looked according to folks that were in the 
department for at least 90 days or folks that were already 
serving in a Presidentially appointed Senate-confirmed 
position. Ambassador----
    Ms. Wild. I am sure there were many people you considered. 
I am going to reclaim my time and just ask who suggested that 
Ambassador Akard be the one to replace Mr. Linick?
    Mr. Bulatao. There was--there were myself and the deputy 
secretary that looked to evaluate potential candidates.
    Ms. Wild. And did you speak to Mr. String about it?
    Mr. Bulatao. I do not recall a comment, only in that I 
would have generically asked Mr. String when we looked to 
replace what are the rules and the requirements that we need to 
follow so that we are going in accordance with all legal 
guidelines.
    Ms. Wild. And it is correct that you contacted Mr. Akard 
back in April--mid-April, a full month before--and told him 
that Mr. Linick was going to be removed imminently?
    Mr. Bulatao. I do not remember the exact date. It would 
have been around mid-April where I would have had an initial 
conversation with Mr.----
    Ms. Wild. And so you admit that that conversation took 
place, yes, regardless of the date?
    Mr. Bulatao. Sometime around April there would have been a 
conversation----
    Ms. Wild. Okay.
    Mr. Bulatao [continuing]. Asking about his interest.
    Ms. Wild. And Mr. Akard has told us that you told him that 
he could also expect a call from Secretary Pompeo to express 
his views of the Office of the IG. Do you remember telling him 
that?
    Mr. Bulatao. I do not recall making that comment.
    Ms. Wild. And if that--but you do not deny making that 
comment?
    Mr. Bulatao. No, I do not recall making a comment that you 
just stated and I do not have the benefit of the transcript. So 
I am not sure what context that statement was made in.
    Ms. Wild. And if that comment were true, it suggests to me 
that Secretary Pompeo was trying to influence the inspector 
general position before Mr. Akard even started. Do you know 
anything about what Mr. Pompeo wanted to tell Mr. Akard before 
starting as IG?
    Mr. Bulatao. Again, there was no statement of that that I 
recall making to Mr. Akard. I do--I will tell you what I 
remember calling in to him.
    What I said to him is there is a huge trust deficit between 
the department and the IG, and the leadership of the 
department, including the deputy, the Secretary, all of the 
leadership, really wants to find a person who can help to 
restore and build the bridges of that trust deficit.
    Ms. Wild. And all of that that you have just relayed is 
information that you would be able to relay directly to Mr. 
Akard? That would not be something that the Secretary would 
need to impart to Mr. Akard, would it be?
    Mr. Bulatao. No.
    Ms. Wild. Okay. And do you know whether Secretary Pompeo 
wanted to convey to Mr. Akard subjects that should be stayed 
away from in terms of IG investigations?
    Mr. Bulatao. Again, the Secretary was not involved in any 
of these discussions regarding trying to identify a 
replacement. He was not involved in saying, I want to have a 
conversation, I want to do any of that. I have no recollection 
of those statements as you characterize them.
    Ms. Wild. Well, did he have any role at all in the choice 
of Mr. Akard?
    Mr. Bulatao. At the very end, the deputy secretary and I 
briefed him on our nomination. We explained to him that 
Ambassador Akard had served in several regions of the 
department.
    He was a Foreign Service officer. He had served as a 
consular officer in South/Central Asia. He has served as a 
political econ officer in the EUR region. He had served as an 
executive assistant in the exec sec.
    He has served as the acting chief of staff in the E Bureau 
for Economic, Energy, and the Environment and that he would be 
a good choice to start to rebuild that trust deficit that we 
saw.
    Ms. Wild. Okay. So your answer suggests to me that 
Secretary Pompeo had no real awareness of who Mr. Akard was 
until you informed him of his credentials.
    Mr. Bulatao. That is not what I am suggesting. What I am 
suggesting to you is what we described to the Secretary as our 
rationale----
    Ms. Wild. Okay.
    Mr. Bulatao [continuing]. For nominating Ambassador Akard 
as a replacement.
    Ms. Wild. Now, there was also a suggestion that Ambassador 
Akard should keep his job in the Office of Foreign Missions 
where he was one of your subordinates in addition to taking on 
the role of IG. And is that correct?
    Mr. Bulatao. That is not correct. The conversation we had 
with Ambassador Akard is you absolutely need to divorce 
yourself from any decision authorities or operations.
    As a matter of fact, we need to delegate your authorities 
in the Office of Foreign Missions to your deputy. You should 
not have any operational or any day-to-day contact with your 
team.
    You need to focus on being the full time acting IG, and 
when that acting assignment is done we will then move those 
delegations of authorities back to you. But from a operational 
perspective you just need to separate and divorce yourself from 
that role.
    Chairman Engel. The gentlewoman's time has expired.
    Mr. Levin.
    Ms. Wild. Thank you, Mr. Chairman. I yield back.
    Mr. Levin. Thank you, Mr. Chairman. Thank you, gentlemen, 
for appearing.
    Mr. Cooper, it is good to see you again.
    Last year, I asked you about the timing of the emergency 
declaration, noting that when Secretary Pompeo briefed Congress 
on May 21st, 2019, he made no mention whatsoever of any 
emergency. Here is what you said.
    [Video is played.]
    Mr. Levin. But an emergency did not pop up in those 3 days. 
The department was cooking up this emergency almost 2 months 
earlier. I gave you the chance then to correct yourself but you 
doubled down.
    Now, I have just--I have read your letter laying out the 
long history of bad acts by Iran to justify this emergency 
declaration.
    But none of that changes the fact that your testimony that 
an emergency arose between May 21st and 24th just was not true. 
Were you lying to the committee or did you have bad 
information?
    Mr. Cooper. Congressman, as you said, I covered this fully 
in my August 17 letter to you and there was a copy that was 
provided to the chairman. But I do appreciate the opportunity 
to yet again set the record straight here. I stand by my 
statements.
    They were faithfully summarizing everything, the factual 
basis for the emergency that reflected the Secretary's 
certification that was submitted to Congress----
    Mr. Levin. Okay. I am----
    Mr. Cooper [continuing]. And to the dates, to be clear, Mr. 
Levin, between May 21 and May 24, the Secretary made the 
decision to exercise a long-standing statutory authority due to 
the emergency circumstances described in his certification, 
which we reenumerated in my testimony, which you decided to not 
fully show the entire video.
    Mr. Levin. All right. Mr. Cooper----
    Mr. Cooper. I categorically reject repeated partisan 
political attempts to publicly mischaracterize my remarks.
    Mr. Levin. Okay. Mr. Cooper, your remarks were--stand for 
themselves. We just played them.
    Mr. Cooper. Play all of them, Mr. Levin.
    Mr. Levin. That is what you actually said. That is what you 
actually said.
    Mr. Cooper. Don't parse them.
    Mr. Levin. Let us talk about the OIG report. The State 
Department, in fact, we understand it was you personally, sir, 
demanded unprecedented redactions on this unclassified report. 
Those redactions deal with the time line, the very information 
that contradicts your testimony.
    The report shows the department first proposed using this 
emergency authority on April 3d, that the first drafts of that 
emergency were circulated on April 23d, and that on May 4th, 
Secretary Pompeo handpicked the day 3 weeks in the future on 
which he would send you up here to claim an emergency had 
suddenly appeared.
    Those dates are nowhere near the May 21st to May 24th 
window you testified to, and you covered them up, literally, 
with a big black box in the redactions.
    Who asked for those redactions, sir? Who signed the letter 
to the OIG pushing for them? Was it you, yes or no? Did you ask 
for them, sir?
    Mr. Cooper. No. But I want to tell you----
    Mr. Levin. Okay. Then let me ask Mr. String.
    Mr. Cooper. Congress received full--Congress received an 
unredacted report. Mischaracterizing----
    Mr. Levin. So----
    Mr. Cooper. Congress received a full report, sir.
    Mr. Levin. I understand that, sir. That is not what I am 
asking you about.
    Mr. Cooper. But----
    Mr. Levin. Sir----
    Mr. Cooper [continuing]. You asked a question about 
redacted passages. That is internal information.
    Mr. Levin. Sir, I am going to reclaim my time and continue 
asking Mr. String. Did you ask for those redactions, sir? Yes 
or no.
    Mr. String. Congressman, I would like to----
    Mr. Levin. I am going to ask you to answer the question, 
sir. Did you--it is not a complicated matter. Did you ask for 
those redactions?
    Mr. String. The unclassified report that was provided to 
Congress, as I understand it, was fully nonredacted.
    Mr. Levin. The public report.
    Mr. String. But the elected representative of the American 
people----
    Mr. Levin. Who asked for the--who asked for the redactions 
in the report that was public?
    Mr. String. Well, the elected representatives----
    Mr. Levin. Okay. You are not going to answer the question.
    Mr. String, did anyone in your office tell Mr. Cooper that 
he might have an ethics problem if he pushed to redact in this 
report? If he pushed to redact the time lines which 
contradicted his testimony to the Congress?
    Mr. String. Not to my awareness.
    Mr. Levin. Okay. And when did you first see a draft of the 
declaration with the redactions?
    Mr. String. Just a clarifying question. The declaration?
    Mr. Levin. Well, let me--let me ask Mr. Cooper.
    What is the first day that you learned an emergency would 
be certified to Congress on May 24th? Was it that first day? 
Was it April 3rd? Was it April 4th? What was the first day that 
you learned of this?
    Mr. Cooper. Congressman, first of all, I was confirmed by 
the Senate April 30th. I was serving an additional capacity in 
the National Security Enterprise earlier in April, not at the 
State Department.
    As far as the decision process, the--it would have been 
before the Secretary certified it. Again, that window is 
between May 21, 24 where he made the decision----
    Mr. Levin. So are you saying you never knew before May 
21st?
    Chairman Engel. The gentleman's time has expired.
    Mr. Cooper. Congressman, we had to provide him the 
opportunity to make that decision.
    Mr. Levin. So you did know before?
    Troubling. All right, Mr. Chairman. Thank you. I----
    Mr. Cooper. No, what is troubling are the Houthi threats 
and the Iranian threats to U.S. interests and our partners. 
That is troubling, Mr. Levin.
    Mr. Levin. Sir, the process of dealing with the U.S. 
Congress stands on its own as a responsibility of the State 
Department and every other part of the executive branch, and 
you cannot hide behind what we all agree are the very important 
foreign policy concerns that we all share. You cannot hide 
behind them, sir.
    I yield back.
    Chairman Engel. Ms. Spanberger.
    Mr. Cooper. By congressional notification it is public.
    Ms. Spanberger. I reclaim my time.
    Yesterday the State Department Office of Inspector General 
sent HFAC four letters that were part of a back and forth 
between the IG's office and the State Department. I will begin 
with questions for Mr. Cooper.
    On July 10th, 2020, about 2 months after Mr. Linick was 
fired and a week after Mr. Bulatao postponed his last scheduled 
appearance before the committee, you sent a memo to the State 
Department Office of the Inspector General asking them to make 
redactions in the draft arms sales report. Is this correct?
    Mr. Cooper. If you are referring to the----
    Ms. Spanberger. Yes or no, sir.
    Mr. Cooper. We sent a memo to release the report, ma'am.
    Ms. Spanberger. And the Office of the Inspector General 
interviewed you as a witness in this probe last November. Is 
that correct?
    Mr. Cooper. Say that again. You stepped away from the mic 
for a sec.
    Ms. Spanberger. And the Office--the OIG interviewed you as 
a witness in this probe last November. Is that correct?
    Mr. Cooper. That is correct, and that is withstanding with 
the OIG----
    Ms. Spanberger. So you were asking for redactions about an 
investigation of something you had personally been involved in, 
the arms sale. Is that correct?
    Mr. Cooper. No, ma'am. What is correct is that we--any 
assistant secretary or bureau leader would be part of any----
    Ms. Spanberger. But, sir, you were before Congress last 
year talking about those very arms sales. So you are now saying 
that you were not involved in them?
    Mr. Cooper. Ma'am, no. What I was saying is we were part of 
the report that was being done. It is normal course of business 
for the Inspector General to sit down and interview all of us 
who were part of the process.
    Ms. Spanberger. But you did not--Okay. So you were asking 
for redactions about an investigation and something that you 
had been involved with. Who told you to write that memo?
    Mr. Cooper. There are no redactions in the report sent to 
Congress. The redactions that were done were to protect on 
deliberate decisionmaking matters.
    Ms. Spanberger. So the challenge there, though, is that the 
OIG, of course, disagreed with you. So I am very concerned, as 
I believe we all should be, about civilian casualties and what 
appears to be the administration's lacking commitment to 
reducing civilian staff deaths.
    When it came to the section of the report on civilian 
casualties, you recommended, and I am quoting here, that the, 
quote, ``OIG consider removing this element from the 
unclassified report in order to allow that that report be 
finalized, briefed to Congress, and released to the public.''
    If the OIG had taken your advice, the public would never 
have seen the part about the civilian casualties. Congress 
would not talk about it and we would be in the dark. Is that 
correct, sir?
    Mr. Cooper. That isn't to my recollection because we 
actually supported the finding that we do more on civilian 
casualties.
    Ms. Spanberger. Okay. So in response to your request for 
that information to be classified, the OIG wrote back on July 
21st and they did not mince words. They said that you failed 
to, quote, ``properly invoke a claim of privilege that would 
justify withholding the information.''
    It further stated the department's proposed redactions 
appear to be overly broad, and do not conform to U.S. 
Government practices.
    What is more, your redactions would cover, quote, 
``nonpriveleged factual information'' about, quote, ``specific 
actions taken by the U.S. Government.'' They gave you all 3 
days to get back to them with defensible redactions.
    On July 27th, past the deadline, the deputy legal advisor, 
Joshua Dorosin, wrote back to the guidance that you had 
received, and in the July 27th memo to the OIG Mr. Dorosin 
wrote this.
    It claims that, quote, ``The Inspector General is subject 
to the supervision of the Secretary.'' Now, while those words 
do appear in the IG Act, Mr. Dorosin left out that the courts 
had been very clear that the, quote, ``supervision phrase'' 
does not, quote, ``include any authority to compromise the 
investigatory rights conferred to Inspectors General.''
    The letter further points to U.S. v. Nixon to claim that 
the OIG has to defer to Secretary Pompeo in these redactions.
    So in response, Mr. Cooper, the OIG gets back to you on 
August 3d with their final version of the report and we know, 
despite your best efforts, that unclassified report still notes 
the administration did not do enough to mitigate civilian 
casualties.
    So to recap what we are looking at, Mr. Bulatao and Mr. 
String tried and failed to shut down the investigation. 
Secretary Pompeo got IG Linick fired.
    Mr. Bulatao puts one of his own subordinates, which my 
colleagues have talked about, and then immediately starts 
trying to influence, through your efforts, Mr. Cooper, the arms 
sale report only to find out that that would not be successful.
    Since then, the department has tried and failed to get 
Congress to drop its investigation and, in the end, you and 
your colleagues tried to cover up the most alarming reports, 
parts of that report, with big black redaction boxes and put 
them in a classified annex.
    Mr. Cooper, if the department has done the due diligence to 
make sure these weapons were not being used to slaughter 
civilians, it seems like you all could have saved yourself a 
lot of time trying to cover up the fact that you were 
preventing these--trying to cover up the fact that you were not 
preventing these needless deaths.
    But it does not appear that that was important to you. 
Instead, families have suffered and I am glad--and I appreciate 
that you have come before Congress today.
    But rather than trying to keep this information out of the 
public view and, certainly, out of the hands of Congress, you 
have done a disservice to the department.
    And I yield back, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Trone.
    [No response.]
    Chairman Engel. Okay. We will go to Mr. Malinowski.
    Oh, I am sorry. No, we will not.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chairman.
    Mr. Under Secretary, I would like to go back to the problem 
that the State--at the State Department, what appears to be 
politically motivated retaliation against career employees.
    It seems to stretch back to 2017 and 2018 during Secretary 
Tillerson's tenure. We certainly hope that Secretary Pompeo 
would not allow such conduct. But it does seem that politicized 
retaliation is too often the case of--been the case of this 
Administration.
    So this is the environment in which Mr. Linick was working 
when you demanded that he hand over a Department of Defense 
Inspector General's report with conclusions in the 
investigation into the alleged leak of the State OIG work 
product that you ordered him to get to the bottom of and that 
included the names of people at the State Department--I am 
sorry, at State OIG who had been investigating the department 
for politically motivated retaliation.
    So, Mr. Linick credibly testified, and I can certainly 
understand this, having been involved in organizations such as 
this, that he was concerned for his staff when the department 
sought out this report and he said, I quote, ``I could imagine 
the department using information in the report against them and 
wanted to make sure that their confidentiality was protected.''
    So my first question is just a baseline question. Do you 
think that politicized retaliation has occurred at the 
department during this Administration against career employees 
due to their perceived ethnic, national, or work for prior 
administrations?
    Mr. Bulatao. Congresswoman, as I stated in my confirmation 
hearing, which was back in July, I said that once I was in 
place we would do everything in our power to make sure that 
there were only merit-based factors being used to evaluate 
employees.
    Ms. Houlahan. So the answer is that you do not think that 
this has happened? Because the IG has a report that says that 
this has, in fact, happened historically.
    Do you think it is wrong? It seems as though you do think 
it is wrong, and I agree, for people to be targeted for those 
particular reasons other than performance.
    Mr. Bulatao. And to clarify, the IG report found out of the 
five Foreign Service officers investigated that four were no 
fault found with----
    Ms. Houlahan. So five minus four--like, so I am missing the 
point that you are trying to make. Are you trying to say that 
there is--there has never been a case where there has been 
discrimination?
    Mr. Bulatao. I am referring--I am referring to the specific 
case because it did contain the sensitive information that was 
leaked somehow and it----
    Ms. Houlahan. So I am just going to reclaim my time because 
I know that votes are going to be called and I want to move on.
    Secretary Pompeo did say that there is no place in the 
State Department for people to be targeting employees based on 
their national origin or because they were perceived as not 
being sufficiently loyal to the president and you seem to have 
indicated that as well.
    Have you ever personally participated in this sort of 
targeting, Mr. Bulatao?
    Mr. Bulatao. No, I have not.
    Ms. Houlahan. So we know that Mr. Linick was more than 
willing to prove to you that his staff had not leaked the IG 
report.
    But his concern, which was very well founded, as it turned 
out, was that the DoD IG report proving his staff's innocence, 
could and would be used to bully and target his line employees 
for simply doing their work, and it was actually done.
    And I am assuming that you know that on June 9th, a right-
wing media outlet published the entire unredacted DoD IG report 
that concluded that Mr. Linick and his staff actually did not 
cause the leak. Is that true?
    Mr. Bulatao. Well, I do not know who published it. But the 
only person that had it at that time was the IG, and then the 
IG turned it over to Congress.
    Ms. Houlahan. And that is kind of what I am trying to get 
to the bottom of. Did you release or authorize the release of 
that unredacted information?
    Mr. Bulatao. No, we never received the report directly.
    Ms. Houlahan. Do you know who did?
    Mr. Bulatao. I am unaware who may have done that.
    Ms. Houlahan. Can you tell me today that you are confident 
that the leak of this unredacted DoD IG report to the right-
wing media did not come from the State Department?
    Mr. Bulatao. I am unaware of what sources of that 
unredacted version of that report came from.
    Ms. Houlahan. So if you are not aware of where it is coming 
from, are you trying to get to the bottom of where it might 
have been leaked from? Because it is evident that it was not 
leaked from the sources that you are specifically blaming at 
this point in time.
    Mr. Bulatao. Actually, that is incorrect, Congresswoman. We 
have actually gone back to the council--CIGIE council to look 
at this again because what came out from the DoD investigation 
is that it was a very superficial investigation.
    There was not a thorough investigation done, and our 
understanding as why that was done is the way the IG 
characterized that investigation to his pal in the DoD IG. So 
if it was not done properly we are asking the integrity 
committee to please look at that again.
    Ms. Houlahan. It just seems as though this report in its--
in its leaking and nonredacted form is further evidence of an 
administration that has a culture of retaliation, and it would 
seem that you should be aggressively looking for where this 
report might have come from and been leaked to in order to be, 
I guess, trying to give us the impression that this is an 
administration that is about retaliation against employees who 
have indicated any sort of nonallegience to this president.
    And I am, unfortunately, out of time and I appreciate you 
coming. But I am really surprised and disappointed because it 
does feel as though that this Administration has a pretty 
consistent course of firing people who do not appear to agree 
with them for one reason or another, and that is a 
disappointment to me.
    I yield back.
    Chairman Engel. The gentlewoman yields back.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Mr. Cooper, how does the provision of Paveway bombs for 
bombing targets in Yemen help Saudi Arabia or how did it help 
Saudi Arabia meet an emergency imminent threat from Iran to its 
oil fields, to shipping in the Gulf, targets in Iraq and 
Lebanon that you mentioned, all the threats that you mentioned?
    Mr. Cooper. Thank you for that question. So the key word 
there is precision guidance. They are available not just for 
defenses of which you just enumerated but it is also to 
actually address targets, to mitigate any targeting on anything 
that would be of Saudi interest.
    Mr. Malinowski. None of those things were being hit from 
Yemen. Those were direct Iranian threats against Saudi 
oilfields, shipping. Paveway bombs are not defensive weapons 
against those kinds of threats.
    Mr. Cooper. I would like to add that--in a classified fora 
I would like to further provide information on specificity on 
threats of not just infrastructure----
    Mr. Malinowski. Let me just ask you here----
    Mr. Cooper [continuing]. But civilians as well.
    Mr. Malinowski [continuing]. What share of those Paveways 
have been delivered at this point?
    Mr. Cooper. Anything that would have been a direct 
commercial sale would have been delivered. In fact, I would 
note that at the time the OIG concluded the report we had asked 
them to update it. Their date of information was old. It was in 
late 19----
    Mr. Malinowski. Were the Paveways delivered within, say, 
two or 3 weeks of the emergency declaration?
    Mr. Cooper. They were--I could not tell you the exact date 
but they were delivered--those were some of the first things 
delivered because they were ready for delivery.
    Mr. Malinowski. Okay.
    Mr. Cooper. Anything that was foreign military sales which 
would have acquired additional development----
    [Simultaneous speaking]
    Mr. Malinowski. Why--let me move on. Why did you spend 2 
months deliberating and executing a decision to use this 
emergency declaration when you could have gotten the sale 
through in a month by going through the normal congressional 
notification?
    Mr. Cooper. Speaking of notification, all the sales had 
been notified to Congress. This was part of the open and 
transparent process that we have.
    It is a feature, not a bug. If anything, it does show that 
we are stronger against our adversaries who do not have 
transparent processes.
    But to your question as to on meeting those conditions, 
some of those conditions that we laid out was the Secretary of 
the United States providing confidence and assurance to our 
partners, Saudi Arabia and United Arab Emirates in particular--
--
    Mr. Malinowski. I understand.
    Mr. Cooper [continuing]. While making--sending a message to 
Tehran.
    Mr. Malinowski. And that is a policy goal that is ever 
present. It is not an emergency.
    Now, let me go through civilian casualty mitigation. Spring 
of 2017, we made a real effort. The Trump Administration made a 
real effort, laying out actual conditions to Saudi Arabia for 
the receipt of these weapons.
    And those conditions were not just about training, sir. 
They were also--they included the provision of a no-strike list 
with 33,000 specific targets.
    Are you aware that the Saudi air force has continued to 
strike specific coordinates on the no-strike list that the 
United States gave them since that was handed over, in fact, 
repeatedly handed over? Yes or no.
    Mr. Cooper. I could speak fully in another fora about the 
target integrity and challenges that are--that the partners 
have had to meet from the Houthi rebels and others.
    Mr. Malinowski. I look--I look forward to that. They have 
precisely continued to strike targets that we have precisely 
identified them as being on a no-strike list.
    Sir, if you were teaching me to drive for 5 years and I 
continued to hit passersby, continued to total my car, would 
you continue to give me the keys?
    Mr. Cooper. Sir, we have a partner that is under extreme 
threat, a continuous threat and a developing one.
    Mr. Malinowski. Yes, I----
    Mr. Cooper. Those include our interests. We remain 
steadfast and shoulder-to-shoulder in our partnership.
    Mr. Malinowski. Okay. State Department talking points, and 
you know what? I do not think under those--you know, we have 
gone from actually providing conditions to the Saudi, from 
serious people like General Jim Mattis, to having you sit here 
and tell us that the new and improved policy is we are giving 
them a tool kit--we are giving them a suite of technical 
solutions when they have continued to deliberately and 
precisely hit targets we have asked them not to hit.
    Mr. String, one of the recommendations in the IG report, 
reportedly, was that the department, quote, ``update its 
analysis of legal and policy risks related to selling these 
bombs to Saudi Arabia.''
    Why was that recommendation moved to the classified annex 
of the report? Why is that classified?
    Mr. String. Congressman, if I understand your question 
correctly, you are asking about a classified recommendation?
    Mr. Malinowski. I am asking about a report that that was 
moved to the classified annex. Why was that classified?
    Mr. String. I do not have specific recollection of the 
deliberations by the IG that went into that. But I am not 
comfortable talking here about anything in the classified 
annex.
    Mr. Malinowski. And then let me just, finally, ask you I do 
not care whether you saw a memo from 2016. I saw it. I was a 
assistant secretary at that point. But you are the acting legal 
advisor.
    Is it still the view--is it still your view--is it still 
the view of the Office of the Legal Advisor that State 
Department officials potentially face personal legal liability 
if they provide weapons to a partner country without adequate 
safeguards as to mitigating civilian casualties when you have 
this 5-year record of war crimes being committed and documented 
by our partner? Is it still--is that still the view of your 
office?
    Mr. String. Congressman, thank you for that question. We 
are very aware of the issues that you raised. We take the issue 
very seriously and all of the legal work that we do in the 
Office of the Legal Advisor ensures to the maximum extent 
possible that the risk is reduced as close to zero as possible.
    Mr. Malinowski. That is a mission statement. It is not an 
answer to my question. Is it still your view that U.S. 
officials face, potentially, personal legal liability if 
adequate safeguards are not met?
    I am not asking you whether those safeguards have been met. 
Obviously, that is a much more controversial question. But as a 
legal matter, is that still the view or have you changed it? 
Because that was the view at the office.
    Mr. String. Again, Congressman, our legal work, our legal 
analysis, ensures that the U.S. Government, across the 
government, takes every possible effort to address this serious 
issue.
    I can assure you we take it very seriously in the Office of 
the Legal Advisor and other bureaus in the department and 
throughout----
    Mr. Malinowski. If they do not, do they, potentially, face 
personal legal liability?
    Mr. String. Congressman, I have answered your question.
    Mr. Malinowski. You have not, actually.
    Mr. String. I am not going to get into specific legal 
conclusions. But I can tell you that we take the work very 
seriously and that work continues.
    Mr. Malinowski. Let me just say, if we find out at some 
point that you or any other official in the State Department 
has changed that analysis, it would be an incredibly serious 
matter and, personally, I would consider you to face personal 
legal liability for that decision.
    With respect, I yield back.
    Mr. Bulatao. Mr. Chairman, can I offer a clarification on a 
statement for the record that I made to Congresswoman Houlahan 
earlier?
    When I was making the statement that I had not received the 
DoD report, I mean I had not received it from Director Linick. 
The department did receive a copy of that report at the same 
time that Congress received it prior to Linick's interview here 
on the committee.
    Chairman Engel. Okay. Thank you.
    That concludes the questioning of our witnesses, and let me 
make an announcement since we are voting.
    In a change of plans, in agreement with the State 
Department we are going to cancel the classified session that 
we had originally scheduled. The Department has indicated its 
willingness to schedule classified calls for any Members who 
wish to followup on this matter.
    So this will wrap up our proceedings for today. I thank our 
witnesses for their time, and without objection the Committee 
on Foreign Affairs is adjourned.
    [Whereupon, at 1:41 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
